<html>
<title> - IRS ENFORCEMENT OF THE REPORTING OF TIP INCOME</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





             IRS ENFORCEMENT OF THE REPORTING OF TIP INCOME

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON OVERSIGHT

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 15, 2004

                               __________

                           Serial No. 108-67

                               __________

         Printed for the use of the Committee on Ways and Means


                    U.S. GOVERNMENT PRINTING OFFICE
99-685                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                      COMMITTEE ON WAYS AND MEANS

                   BILL THOMAS, California, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
E. CLAY SHAW, JR., Florida           FORTNEY PETE STARK, California
NANCY L. JOHNSON, Connecticut        ROBERT T. MATSUI, California
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM MCCRERY, Louisiana               JIM MCDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. MCNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHIL ENGLISH, Pennsylvania           LLOYD DOGGETT, Texas
J.D. HAYWORTH, Arizona               EARL POMEROY, North Dakota
JERRY WELLER, Illinois               MAX SANDLIN, Texas
KENNY C. HULSHOF, Missouri           STEPHANIE TUBBS JONES, Ohio
SCOTT MCINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida
KEVIN BRADY, Texas
PAUL RYAN, Wisconsin
ERIC CANTOR, Virginia

                    Allison H. Giles, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                       SUBCOMMITTEE ON OVERSIGHT

                    AMO HOUGHTON, New York, Chairman

ROB PORTMAN, Ohio                    EARL POMEROY, North Dakota
JERRY WELLER, Illinois               GERALD D. KLECZKA, Wisconsin
SCOTT MCINNIS, Colorado              MICHAEL R. MCNULTY, New York
MARK FOLEY, Florida                  JOHN S. TANNER, Tennessee
SAM JOHNSON, Texas                   MAX SANDLIN, Texas
PAUL RYAN, Wisconsin
ERIC CANTOR, Virginia

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of July 8, 2004, announcing the hearing.................     2

                               WITNESSES

Internal Revenue Service, William F. Conlon, Director, Reporting 
  Compliance.....................................................    43

                                 ______

American Gaming Association, and Aztar Corp., Joseph J. Jablonski    23
Marriott International, Inc., Edward A. Rosic, Jr................    12
National Restaurant Association, and K-Bob's USA, Inc., Edward R. 
  Tinsley........................................................    16
Power & Power, Tracy J. Power....................................     8
The Salon Association, and Zona Salons, Frank Zona...............    28

                       SUBMISSION FOR THE RECORD

Darden Restaurants, Inc., Orlando, FL, Richard J. Walsh..........    61

 
             IRS ENFORCEMENT OF THE REPORTING OF TIP INCOME

                              ----------                              


                        THURSDAY, JULY 15, 2004

             U.S. House of Representatives,
                       Committee on Ways and Means,
                                 Subcommittee on Oversight,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:22 a.m., in 
room 1100, Longworth House Office Building, Hon. Amo Houghton 
(Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY FROM THE COMMITTEE ON WAYS AND MEANS

                       SUBCOMMITTEE ON OVERSIGHT

                                                CONTACT: (202) 225-7601
FOR IMMEDIATE RELEASE
July 08, 2004
No. OV-15

                  Houghton Announces Hearing to Review

                  the IRS Enforcement of the Reporting

                             of Tip Income

    Congressman Amo Houghton (R-NY), Chairman, Subcommittee on 
Oversight of the Committee on Ways and Means, today announced that the 
Subcommittee will hold a hearing to review the Internal Revenue Service 
(IRS) enforcement of the reporting of tip income. The hearing will take 
place on Thursday, July 15, 2004, in the main Committee hearing room, 
1100 Longworth House Office Building, beginning at 10:15 a.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include representatives of the IRS, the National 
Restaurant Association, The Salon Association, and an individual from 
the gaming industry.
      

BACKGROUND:

      
    Over the last decade there has been significant growth in the 
service industries. In 1994, tip wages reported to the IRS totaled 
$8.52 billion, and in 2003, this number grew to just over $18 billion. 
Despite the increase in reported income, the IRS estimates that 
unreported tip income may exceed $9 billion annually. The IRS first 
addressed the issue of compliance with its creation of the Tip 
Reporting Determination/Education Program (TRD/EP) in 1993. The TRD/EP 
was designed to educate employers and employees in the service industry 
about tip reporting laws in order to increase compliance.
      
    Businesses may voluntarily participate in one of two types of 
agreements, the Tip Reporting Alternative Commitment (TRAC) or the Tip 
Rate Determination Agreement (TRDA). The TRAC emphasizes employee 
education and tip reporting procedures. Employers must agree to assume 
responsibility for having their employees report tips, and the IRS 
agrees to not assess the business employment taxes on unreported tips 
unless the employees are examined first. The TRDA requires the 
determination of tip rates using historical data that the IRS works 
with the employer to establish. Employees are required to sign an 
agreement with their employer that they will report tips at or above a 
determined rate established by the employer and the IRS. Under the 
TRDA, the employer reports non-compliant employees to the IRS, but is 
not required to educate the employees on reporting tips. The TRDA 
agreements have become common in the gaming industry.
      
    In December of 2000, the IRS began to offer a third option called 
the Employer-designed Tip Reporting Alternative Commitment (EmTRAC). 
The EmTRAC contains the same elements of TRAC, but goes a step further 
by giving the employer the latitude to train and educate their 
employees of their responsibility to properly report tip income. 
Currently, EmTRAC is only available to the food and beverage industry 
and each individual plan needs to be approved by the IRS. Depending on 
its success, EmTRAC may be expanded to cover other service industries.
      
    In June of 2002, the U.S. Supreme Court heard the case of United 
States v. Fior D'Italia, Inc., 122 U.S. 2117 (2002). The central 
question involved whether current law authorized the IRS to assess a 
restaurant for employment taxes based upon tips their employees may 
have received, but failed to report. The Court held that the IRS is 
authorized to use an aggregate estimation method when a restaurant or 
business underreports its tip income, and that employers could be held 
liable for taxes beyond what their individual employees reported for 
tips. The aggregate estimation method uses overall credit card charges 
to determine the average percentage tip rate paid by the customer. This 
rate is then applied to the total sales reported on the annual Form 
8027. The restaurant is then required to pay this percentage based on 
cash tips. Employers in the restaurant and other service industries 
have argued that it is unfair to assess them using the aggregate 
estimation method and hold them liable if their employees are not 
accurately reporting their tip income. They argue that it is unfair to 
assume cash tips are the same as credit card tips.
      
    Legislation has been introduced to address some of the problems 
surrounding audits and the aggregate estimation method. Representative 
Wally Herger (R-CA) introduced H.R. 2034, the ``Tip Tax Fairness Act of 
2003,'' which would require an accurate evaluation of unreported tips 
by the IRS. In addition, the bill would bar the IRS from conducting 
employer-only aggregate assessments for the purpose of determining 
Federal Insurance Contribution Act (FICA) taxes on underreported tip 
income. Representative Nancy L. Johnson (R-CT) introduced H.R. 2133, 
the ``Cosmetology Tax Fairness and Compliance Act of 2003,'' which 
would extend to the cosmetology industry the nonrefundable income tax 
credit for employer-paid Social Security taxes on employee cash tips to 
meet Federal minimum wage requirements. The tax credit allows 
businesses to offset part of the taxes they pay on the tip income of 
their employees. Under current law, Section 45B of the Internal Revenue 
Code provides a tax credit for employers only in the food and beverage 
industry.
      

FOCUS OF THE HEARING:

      
    The hearing will examine IRS enforcement of tip reporting, the 
progress of the TRDA, TRAC, and EmTRAC agreements, proposed legislation 
addressing the restaurant and salon industries, and solutions to 
increase compliance from employers and employees in the service 
industries.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``108th Congress'' from the menu entitled, ``Hearing Archives'' (http:/
/waysandmeans.house.gov/Hearings.asp?congress=16). Select the hearing 
for which you would like to submit, and click on the link entitled, 
``Click here to provide a submission for the record.'' Once you have 
followed the online instructions, completing all informational forms 
and clicking ``submit'' on the final page, an email will be sent to the 
address which you supply confirming your interest in providing a 
submission for the record. You MUST REPLY to the email and ATTACH your 
submission as a Word or WordPerfect document, in compliance with the 
formatting requirements listed below, by close of business Thursday, 
July 29, 2004. Finally, please note that due to the change in House 
mail policy, the U.S. Capitol Police will refuse sealed-package 
deliveries to all House Office Buildings. For questions, or if you 
encounter technical problems, please call (202) 225-1721.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word or WordPerfect format and MUST NOT exceed a total of 10 pages, 
including attachments. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quote d or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone and fax numbers of each witness.
      

    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov.
      

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                 <F-dash>

    Chairman HOUGHTON. The hearing will come to order. We thank 
you very much for coming. Particularly our witnesses in the 
panels. We are here today to review the IRS (IRS) programs that 
encourage the reporting of tip income. Over the last 10 years, 
the service industry has grown significantly, and many service 
employees receive a good portion of their income from tips. The 
IRS has estimated that a very significant amount of these tips 
remain unreported. I believe that everyone needs to pay their 
fair share of taxes, and I hope we can explore today how to 
improve compliance with the law.
    Two Members of our Committee, Mr. Herger and Mrs. Johnson, 
have introduced bills that would do a variety of different 
things to address issues of tip-reporting in the service 
industry. We are going to hear from a panel of witnesses which 
includes: an individual who worked with the IRS in developing 
one of their tip compliance programs, as well as litigated a 
relevant U.S. Supreme Court case; second, a representative from 
the National Restaurant Association (NRA); thirdly, an 
individual from Marriott International; and then a 
representative from both the Gaming Association and the Salon 
Association (TSA). One of the witnesses on this panel is a 
restaurant owner who created his own successful tip-reporting 
compliance program. We are certainly interested in hearing how 
he has done this.
    On the next panel, we are going to hear from a 
representative from the IRS, who will provide us with 
background on the tip-reporting issue and explain how 
compliance is progressing. I look forward to hearing from the 
witnesses, and I am hopeful that this hearing will provide the 
Members with a better understanding of the reporting of tip 
income. I now yield to the Ranking Member, Mr. Pomeroy, for any 
statement he would like to make.
    [The opening statement of Chairman Houghton follows:]
   Opening Statement of The Honorable Amo Houghton, Chairman, and a 
         Representative in Congress from the State of New York
    Good morning. We are here today to review the IRS programs that 
encourage the reporting of tip income. Over the last 10 years the 
service industry has grown significantly. Many service employees 
receive a good portion of their income from tips. However, the IRS has 
estimated that a significant amount of these tips remain unreported. I 
believe that everyone needs to pay their fair share of taxes, and hope 
we can explore today how to improve compliance with the law.
    Two Members on the Committee have introduced legislation addressing 
issues of tip reporting within the service industry. Rep. Nancy Johnson 
introduced a bill that would extend to the cosmetology industry a 
nonrefundable income tax credit, which is currently only available to 
the food and beverage industry. Rep. Wally Herger introduced a bill 
that would require the IRS to conduct an accurate evaluation of 
unreported tips and bar the use of employer-only aggregate assessments 
for the purpose of determining FICA taxes on underreported tip income.
    First, we will hear from a panel of witnesses which includes an 
individual who worked with the IRS in developing one of their tip 
compliance programs, as well as litigated a relevant Supreme Court 
case, a representative from the National Restaurant Association, an 
individual from Marriott International, and a representative from both 
the gaming industry, and The Salon Association. One of the witnesses on 
this panel is a restaurant owner who created his own successful tip 
reporting compliance program. We are all interested in hearing how he 
does this.
    On the next panel, we will hear from a representative from the IRS, 
who will provide us with background on the tip reporting issue and 
explain how compliance is progressing.
    I look forward to hearing from the witnesses and I am hopeful that 
this hearing will provide Members with a better understanding of the 
reporting of tip income.
    I now yield to the ranking Member, Mr. Pomeroy, for any statement 
he wishes to make.

                                 <F-dash>

    Mr. POMEROY. Mr. Chairman, thank you for convening this 
hearing. We on the Subcommittee on Oversight, I think, find 
today's inquiry squarely in the middle of our strike zone in 
terms of what ought to be the function of the Subcommittee on 
Oversight. In 1982, Congress passed legislation to provide the 
IRS with new measures to identify unreported tip income, and at 
that time it was estimated that about 85 percent of the income 
occurring in this sector went unreported. Two decades later, 
IRS reports that very significant improvement in tip-reporting 
compliance has been made. In fact, we have seen tips from all 
industries reported increase from $8.5 billion in 1994, to $18 
billion in 2003. These voluntary compliance partnerships 
between the private sector and the IRS have shown some 
considerable success.
    The IRS has entered into approximately 14,000 agreements 
with restaurant employers because employers recognize by being 
part of one of these agreements, the business can significantly 
decrease the likelihood of future IRS audits of related 
records. The first panel is going to bring us private sector 
information in terms of how this is going, and the second panel 
is the IRS responding to it. It is absolutely in reverse of how 
we usually do our business, because usually we have the agency 
first followed by the private sector. I think that this 
morning's session can maybe be almost more of a dialog format 
with putting on the record how it is working, the upsides, the 
downsides, where the frustration is--and there is frustration 
as evidenced by the legislation that our colleagues have 
introduced. I think it is going to be very interesting for us 
to get the learning curve that the first panel will bring us 
and then the learning curve of the IRS response. In the end, we 
want to strike a fair balance among taxpayer rights, small 
businessowner needs, and tax enforcement. I hope that today's 
discussion is going to bring us some advanced understanding in 
terms of whether this balance is presently achieved relative to 
tip-reporting income. Thank you, Mr. Chairman, for holding this 
hearing.
    [The opening statement of Mr. Pomeroy follows:]

 Opening Statement of The Honorable Earl Pomeroy, a Representative in 
                Congress from the State of North Dakota

    The goal of today's Oversight Subcommittee hearing is to examine 
the IRS's current tax administration policies for encouraging employer 
and employee compliance in the reporting of and paying of taxes on tip 
income.
    In 1982, Congress passed legislation to provide the IRS with new 
measures to identify unreported tip income. At that time, it was 
estimated that about 85 percent of tip income went unreported by 
workers in food and beverage, beauty and barber, gambling, and taxicab 
businesses.
    Two decades later, IRS reports indicate that there has been a 
significant improvement in tip reporting compliance. Tips reported from 
all industries have risen from $8.5 billion in 1994 to $18 billion in 
2003. This is largely attributed to the private sector working closely 
with the IRS to improve tax reporting by employers and employees. It is 
my hope that this coordination will continue and improve even further.
    Currently, there are three voluntary IRS programs through which 
employers can establish tip reporting and tax payment compliance 
mechanisms. These programs--the Tips Reporting Alternative Commitment 
(TRAC), the Tip Rate Determination Agreement (TRDA), and the Employer-
designed Tip Reporting Alternative Commitment (EmTRAC)--have had some 
success operating on a volunteer basis. The IRS has entered into 
approximately 35,000 agreements with restaurant employers, for example, 
because employers recognize that by being part of one of these 
agreements, a business can significantly decrease the likelihood of 
future IRS audits of related records.
    The first panel of witnesses today, representing the restaurant, 
cosmetology, and gaming industries, will discuss the successes and 
failures of these programs from their experiences. I hope that, as a 
result of this hearing, we will bring to light some of the problems 
these types of businesses are facing in complying with the law and that 
additional dialogue between the parties and the IRS may take place to 
resolve these issues.
    On the second panel, we will have the senior IRS official in charge 
of tax reporting compliance. Among other issues, he will discuss how 
the various tip-reporting programs operate to the benefit of employers, 
employees, and efficient tax administration. In addition, for firms 
that have not chosen to enter into voluntary agreements with the IRS, 
he will discuss the importance of the recent U.S. Supreme Court 
decision supporting the IRS's practice of estimating unreported tip 
income for purposes of calculating an employer's liability for Social 
Security and Medicare taxes.
    I thank and commend Chairman Houghton for holding this hearing. 
This is an issue that clearly has significance to small businesses as 
well as their employees, and I know this is the case in North Dakota 
where I represent thousands of small business owners and employees. In 
discussing this issue, we need to ensure that we strike a fair balance 
among taxpayer rights, small business needs, and tax enforcement. I am 
pleased that the Oversight Subcommittee is examining the matter.
    Thank you Mr. Chairman.

                                 <F-dash>

    Chairman HOUGHTON. Well, thank you. Now, Mrs. Johnson, 
would you like to make a statement or make any introductions?
    Mrs. JOHNSON. Thank you very much, Mr. Chairman. I will not 
be able to stay for your hearing, but I really wanted to come 
and thank the Committee for holding a hearing on this issue 
because it is important that everyone pay their fair share of 
taxes. I have been working for several years now with the salon 
industry because of the unevenness with which the IRS is 
functioning in their industry, creating, really, disparities of 
impact on small businessowners. I am very glad to welcome Frank 
Zona here from Massachusetts, who is representing the salon 
industry. What struck me was the difference between how we are 
dealing with that issue in hairdressing versus how we have 
dealt with it in res-

taurants. While it took us many years to get to some kind of 
reasonable agreement with the restaurant industry, I think this 
hearing and the relationships that this Committee has developed 
with the IRS will give us an opportunity to work with these 
small businesspeople to create a better not only communication 
system and better understanding, but some better solutions. 
Thank you very much, Chairman Houghton and Mr. Pomeroy and all 
the Members of the Committee, for holding this hearing, and I 
wish you well and look forward to working with you. Thank you, 
Frank, for coming.
    Chairman HOUGHTON. Thank you very much. Mr. Tanner, would 
you like to say something?
    Mr. TANNER. Thank you very much, Mr. Chairman. I want to 
just welcome you all here. Mr. Herger and I have been working 
together on this issue for what, Wally, 3 years now, 4 years? 
We are interested in it. We look very much forward to what you 
have to say to try to help us straighten this thing out. Thank 
you.
    Chairman HOUGHTON. All right. Mr. Herger, would you like to 
make any comment?
    Mr. HERGER. Thank you, Mr. Chairman and Ranking Member, for 
scheduling this hearing. This is an issue of great importance 
to millions of restaurant employees and employers across 
America. Our interest in Congress is making sure that 
employment taxes are paid on tip income and that the IRS is 
enforcing the law in a manner fair and equitable to both 
employers and employees. I believe the question we should be 
asking ourselves today is: how do we create the proper 
environment for employers, employees, and the IRS to best 
manage this admittedly difficult issue? Like many small 
business restaurant owners, I am troubled by the IRS aggregate 
assessments based on an assumed amount of unreported tips. 
Along with Congressman Tanner and others, I have introduced 
legislation that would prohibit the IRS from imposing these 
aggregate assessments with the hope of moving the IRS toward a 
more accurate determination of taxes owed. I am hopeful that 
this hearing will serve as a forum to discuss with Congress and 
the IRS what we can do to improve the collection of taxes on 
tip income. Again, I thank you, Mr. Chairman.
    [The opening statement of Mr. Herger follows:]

 Opening Statement of The Honorable Wally Herger, a Representative in 
                 Congress from the State of California

    I want to thank the Chairman and Ranking Member for scheduling this 
hearing. This is an issue of great importance to millions of restaurant 
employers and employees across America. Our interest in Congress is 
making sure that employment taxes are paid on tip income, and that the 
IRS is enforcing the law in a manner fair and equitable to both 
employers and employees.
    I believe the question we should be asking ourselves today is how 
do we create the proper environment for employers, employees, and the 
IRS to best manage this admittedly difficult issue. Like many small 
business restaurant owners, I am troubled by IRS aggregate assessments 
based on an assumed amount of unreported tips. Along with Congressman 
Tanner and others, I have introduced legislation that would prohibit 
the IRS from imposing these aggregate assessments, with the hope of 
moving the IRS toward a more accurate determination of taxes owed. I am 
hopeful that this hearing will serve as a forum to discuss what 
Congress and the IRS can do to improve the collection of taxes on tip 
income.

                                 <F-dash>
    Chairman HOUGHTON. All right. Now, let me introduce the 
first panel. Tracy Power, Partner at Power & Power; Edward 
Rosic, Vice President and General Counsel of Marriott 
International; Edward Tinsley, Chief Executive Officer (CEO), 
K-Bob's USA, Inc., and Treasurer of the NRA; Joseph Jablonski, 
Executive Director of Aztar Corporation in Phoenix; and Frank 
Zona, whom Mrs. Johnson introduced, Government Affairs Co-
Chair, TSA. We would appreciate if you would begin your 
testimony Ms. Power.

      STATEMENT OF TRACY J. POWER, PARTNER, POWER & POWER

    Ms. POWER. Thank you, Mr. Chairman and Members of the 
Subcommittee. I am honored to be here and pleased to have an 
opportunity to comment on the IRS' tip-reporting enforcement 
policy. I would like to give you a little bit of insight into 
my familiarity with this issue, briefly mention precisely what 
the IRS is doing, and then talk about what is right and what is 
wrong with it. I am a tax attorney representing the restaurant 
industry on a variety of issues. I have been counsel of record 
for seven of the cases that have been brought on the IRS' 
aggregate estimate method in the courts. I represented Fior 
d'Italia before the Supreme Court along with my partner and 
father. I am one of the principal authors of the IRS' Tip 
Reporting Alternative Commitment (TRAC) agreement. I have also 
advised and consulted with well over 50 companies on how they 
should institute and implement tip-reporting procedures in 
order to comply with the TRAC agreement. I have some 
familiarity with the broad spectrum of IRS' response on this 
issue and with the differing operational problems that 
restaurateurs face in dealing with this problem.
    I would like to briefly comment on what the IRS does. The 
IRS reviews the data on the Form 8027, which is a one-page form 
that the restaurateur files each year with the IRS. That form 
contains information as to sales, charge sales, charge tips, 
tips reported. The IRS will look at that information and, for 
instance, if a restaurateur has sales of $1 million, it will 
assume that there is a 15-percent overall tip rate, that 8 
percent of the tips are being reported, 7 percent is 
unreported, and the IRS will assess the employer the employer's 
share of Federal Insurance Contributions Act (FICA) taxes on 
that 7 percent of unreported tips, or $70,000. The IRS goes 
further and now claims that they can go back 16 years on that 
assessment.
    For a unit that grosses about $2 million a year, not an 
atypical amount, that is $170,000 which has to be deposited 
within 3 days after being served the notice and demand because 
it is FICA taxes. For a 500-unit chain, that is $86 million 
that has to be deposited within those 3 days. The IRS uses this 
amount or the published potential for exposure to this 
liability to require the employer to track, monitor, and police 
the reporting of employees' tips. There are a number of things 
wrong with this aggregate assessment approach.
    First, the potential exposure is devastating. It is ongoing 
and it continues to grow. The employer is blindsided by it. He 
had no clue when the last was passed in 1988 that this was the 
potential exposure. Second, the employer does not have and 
never has had the records to defend against this type of 
assessment. Most small operators would not even know where to 
begin to challenge it. Third, the assessment is inherently 
inaccurate. The IRS often fails to acknowledge that there is a 
significant difference between charge tips and cash tips. Gross 
receipts on the Form 8027 include amounts that often are not 
subject to tipping, such as carry-outs, employee meals, manager 
meals. Even the charge tip rate on the 8027 is not an accurate 
indication of the true charge tip rate.
    Next, this is wrong because it is used to push the employer 
into doing something he just simply is not capable of doing: 
monitoring and policing the reporting of tip income by 
employees. Tips vary by employees. In one of the cases that we 
litigated, the tips ranged from 7 to 23 percent. An employer 
has no way of knowing which employee received which amount. 
Employees tip out. They tip out at their own discretion in 
varying amounts to varying different indirectly tipped 
employees, such as busboys, bartenders, and hostesses. The 
employer cannot force the employee to report, and there are 
many logical reasons and legal reasons for why the employee 
might not report his tips to the employer. The employer also 
runs the risk of significant penalties under section 7434 of 
the Tax Code if the employer does attempt to make the employee 
report what he does not earn. Ultimately, the employee is 
harmed if the employer throws up his hands and says everyone 
will just simply report at 15 percent.
    Last, this aggregate assessment procedure is unnecessary. 
The significant increase in tip-reporting since the IRS has 
adopted and implemented the TRAC agreement is indicative of the 
fact that the aggregate assessment procedure is unnecessary. 
The entire amount of that increase from 1994 to 2002 was 
generated without an aggregate assessment threat because the 
IRS during the course of this time had a moratorium against the 
aggregate assessment threat. For these reasons, we encourage 
the Committee to adopt the proposed change to section 3121(q). 
Thank you very much.
    [The prepared statement of Ms. Power follows:]

          Statement of Tracy J. Power, Partner, Power & Power

    Thank you Mr. Chairman and Members of the Subcommittee. I am 
honored to be here and pleased to have the opportunity to speak with 
your committee about the IRS enforcement policy with respect to the 
reporting of tip income. I believe IRS's current enforcement policy 
with respect to tip reporting is unfair to employers, unfair to tipped 
employees, and unnecessary. Today's testimony will highlight some of 
the reasons why.
    By way of introduction I have represented the restaurant industry 
and its individual members on tip reporting matters for over 20 years. 
I filed the first lawsuit challenging IRS's aggregate estimation method 
for assessing the employer share of FICA taxes on unreported tips ten 
years ago. I represented Fior d'Italia on that issue before the U.S. 
Supreme Court in 2002 and many other taxpayers in the various circuits 
in between time. In 1994, I approached IRS on exploring alternatives to 
employer only aggregate assessments and authored, with several other 
representatives of the industry and the Service, IRS's Tip Reporting 
Alternative Commitment (TRAC). Over the last 10 years I have consulted 
with more that 50 industry leaders on tip reporting and TRAC 
compliance. I hope my experience with such a broad cross section of the 
industry will shed some light on the array of problems that employers 
face with respect to employee tip reporting and what's wrong with IRS's 
aggregate assessment method so that realistic and workable expectations 
can guide the Committee's consideration of this issue.
    The collection of taxes on tip income has presented a serious 
administrative difficulty for the IRS. For more than 50 years, Congress 
and IRS have been grappling with the problem.
    Since under state and federal labor and common law, tips are the 
sole and exclusive property of the employee, paid by customers directly 
to employees, and shared among employees in varying unknown amounts, 
Congress has repeatedly and consistently refused to permit the employer 
to become involved in the tipping transaction or to hold the employer 
responsible for the accounting of tip income. Instead, Congress placed 
the responsibility for reporting tip income squarely on tipped 
employees. In turn, Congress armed the IRS with the power and means to 
investigate employee underreporting of tip income and to enforce 
accurate reporting by employees.
    IRS has not been happy with the arrangement, however, and has 
continually attempted to shift its own burden of determining unreported 
tip income to the employers of tipped employees on the basis of a 
misconception that the restaurant is ``in an inherently better position 
than the IRS to determine what its employees actually earned in tips.'' 
(See the Brief for the United States before the Supreme Court in United 
States v. Fior D Italia pg. 38). This fundamental misunderstanding has 
led to numerous clashes between IRS and the restaurant industry, 
manifested in the history of the relevant statutes.\1\ At every turn 
however, Congress has intervened and rejected IRS's attempts to place 
this onus on employers, affirming that the admittedly difficult job of 
determining unreported tip income rests not with the employer, but with 
IRS.
---------------------------------------------------------------------------
    \1\ The Supreme Court brief of Fior d' Italia (pg 2-12) sets forth 
the history of IRS's enforcement efforts with respect to tip income and 
Congress's response.
---------------------------------------------------------------------------
    IRS's current enforcement policy with respect to tip reporting, the 
cornerstone of which is the threat of an assessment based upon an 
estimate of aggregate unreported tips of all employees collectively, is 
simply IRS's latest re-invention of its efforts to effectively force 
the employer into undertaking obligations for, verifying, 
investigating, monitoring, and policing compliance by its employees--
responsibilities which Congress has considered, evaluated, and 
steadfastly refused to transfer from IRS to the employer. The Supreme 
Court's holding in Fior d'Italia, sanctioning IRS's aggregate 
assessment authority, overturns Congress's long standing policy 
considerations underlying the respective roles of employers and IRS 
with respect to the policing of the reporting of tip income by 
employees.
    Armed with the Supreme Court's blessing, IRS has re-instigated it's 
long dormant aggregate estimate assessment policy and is currently 
actively using the threat of a potential assessment for employer FICA 
taxes on an aggregate estimate of unreported tips of all employees 
collectively, against which employers have no defense in the absence of 
the necessary employee information as to actual tips received,to 
effectively force the employer to be responsible for the accurate 
reporting of employee tip income through IRS's tip compliance program. 
The potential assessment is financially devastating, inherently 
inaccurate, and inconsistently assessed. The alternative, for the many 
reasons Congress has considered over the last 50 years, is unrealistic 
and virtually unworkable. The ultimate harm is to the employee and the 
entire process is unnecessary to increase the compliance of tip 
reporting.
    The IRS's threatened assessment is for the 7.65% employer share of 
FICA taxes on the difference between reported tips and the actual 
tipping rate of the establishment as determined by IRS for the now 16 
year period since the employer first became liable for FICA taxes on 
all tips received, whether reported or not, by virtue of the 1987 
amendments to IRC Sec. 3121(q). For a unit with a tipping rate of 15% 
and a reporting rate of 8%, the assessment for the 16 year period would 
equal 8.6% of sales (7 % unreported tips X 7.65% FICA X 16 years). On a 
not atypical sales volume of $2 million the potential assessment is 
$172,000. For a 500 unit chain with $1 billion in sales the potential 
assessment is $86 million. Since these are FICA taxes, the amount would 
have to be deposited with the next regular payroll tax deposit (e.g. 3 
days) after the notice and demand is issued. While the 45B credit for 
FICA taxes paid on tips may be available to offset some or eventually 
all this amount, it is unlikely to do so immediately as average 
industry profits are only 4% of sales and the potential assessment is 
more than twice this amount. If annual taxes are 30% of annual profits 
of 4% or 1.2% of sales, it would take more than 7 years before the 45B 
credit would fully offset a potential FICA tax assessment of this 
magnitude.
    The assessment, based upon an estimate of tips earned by all 
employees in the aggregate from data provided annually to IRS by the 
employer on Form 8027 is also inherently inaccurate. For example, there 
is no way to determine under IRS's aggregate calculation how much, if 
any, of the aggregate unreported tip income was tip income received by 
an individual employee amounting to less than $20.00 a month, 26 U.S.C. 
3121(a)(12), nor how much of the aggregate unreported tip estimated by 
IRS was received by individual employees which when added to such 
individual employee's other wages paid by the employer exceeded the 
wage base, 26 U.S.C. 3121(a)(1). This is information only the employee 
has.
    Nor does use of the Form 8027 data tell one whether individual 
employees received tips net of credit card fees often charged by many 
employers or whether employees received any tips on ``employee meals'' 
or ``carry-out'' sales, figures often included in a restaurant's gross 
receipts on Form 8027 but upon which tips are seldom received. Nor 
would such a methodology provide information about a company's policy 
with respect to ``walk-outs'' or ``stiffs,'' figures often included in 
gross receipts for financial purposes then expensed, but upon which 
tipping is unlikely. Nor would an aggregate assessment based on Form 
8027 data give any information as to whether a portion of a 
restaurant's sales are self-service or buffet at different times of the 
day, factors which would vastly affect the tip rate.
    IRS does not even know whether the amount designated as a tip on a 
charge receipt was in fact a tip. For example, IRS does not know to 
what extent customers use the tip line to procure cash to purchase 
cigarettes or to pay for valet parking or, as in some establishments, 
to feed video games--information which can obviously only be procured 
from the employee himself. IRS does not know whether the aggregate tips 
reported on Form 8027 included credit card amounts which were 
uncollectible for which the employer sought reimbursement from the 
employee.
    The IRS's assessment is also based on the charged tip rate even 
though IRS takes no steps determine if other factors such as the use of 
coupons, gift certificates or two for one offers artificially inflate 
that rate and even though IRS's own studies show that cash tips are 
significantly less than charged tips. These flaws permeate IRS's 
aggregate estimating methodology and for the most part the employer is 
wholly without the information (which he was not privy to in the first 
place) to challenge them. The actual amount of tips retained by 
employees and the data and records to substantiate that amount is 
solely within the employees' control and has never been available to 
the employer. Indeed, many state labor laws prohibit the employer from 
having any involvement in the tipping process whatsoever.
    IRS nevertheless uses the threat of this inherently inaccurate and 
financially devastating assessment to effectively force the employer to 
ensure full and accurate reporting by employees to the employer. 
However, since tips are most often given to employees directly from 
customers in varying amount based upon an individual employee's ability 
and personality and then split with indirectly tipped employees (e.g., 
hostess, busboys, bartenders, bread girls, etc.) in varying amounts at 
the discretion of the directly tipped employees, without any 
involvement of the employer, it is virtually impossible for the 
employer to know the amount of tips received by individual employees 
and assure accurate reporting of that amount.
    In addition, reporting to the employer is not the only means by 
which an employee may declare his tipped income. An employee may 
declare his tips directly on his income tax return through the use of 
Form 4137, a form specifically designed for this purpose. There is no 
penalty for an employee's failure to report his tips to the employer 
and instead report his tip income directly to IRS on his tax return by 
use of Form 4137 as long as his failure is due to reasonable cause and 
not wilful neglect. 26 U.S.C. 6652(b). There are many legitimate, 
logical, practical, and lawful reasons why an employee may not report 
all his tips to the employer pursuant to 6053(a), yet still declare 
them for income tax purposes on Form 4137 when filing his income tax 
return.
    The restaurant business is a very transient business with employee 
turnover rates of 200-400%. Many employees cease working for the 
employer long before the time to report even rolls around--certainly a 
legitimate reason for not reporting to the, now ex-, employer.
    There are also many reasons an employee may not want the employer 
to know the total amount of tips retained. An employee may be afraid 
that if the employer knows the total amount of tips he receives, the 
employer may reduce his station or hours in favor of other employees, 
thereby reducing his income. A directly tipped employee may share a 
substantial portion of his tips with a hostess in return for seating 
the better tipping customers in his section or with a chef for giving 
his favored customers the best cut of meat--practices which neither the 
directly nor indirectly tipped employee would be keen about the 
employer discovering.
    For these reasons and many others there would be nothing unusual in 
the total amount of tips reported by employees to employers being less 
than total credit card tips or less than expected. Similarly, for these 
reasons and many others the employer is not in a position to ensure the 
accuracy of employee reporting.
    The only practical solution to an employer forced to do so, and 
secure protection from an IRS threat of a financially devastating tax 
assessment, is to find a way to force its employees to report at the 
level IRS seeks. Satisfying IRS's stated goals of average industry tip 
reporting at 14\1/2\%, when industry statistics indicate the actual 
figure is substantially less, but employers are without the necessary 
data to support a lower amount, will inevitably mean that many 
employees will be required to report more in tips than they actually 
earn, making their effective tax rate one of the highest in the 
country. The fact that the aggregate estimate assessment fails to 
credit employees with a wage earning history for social security 
benefit purposes for the tips IRS claims they make and that it does 
nothing to further the collection of the employees share of taxes on 
the tips received should also not be overlooked as an inherent flaw in 
this enforcement methodology.
    Despite the flaws in the enforcement policy, the potential harm it 
poses to employers and employees alike and the fact that it leaves 75% 
of the tax dollars at issue on the table, IRS insists the aggregate 
assessment method is an essential component of its enforcement effort. 
IRS argues that in it absence it would be required to conduct 
individual audits of employees at considerable expenditure of agency 
resources with little results.
    The significant increase in tips reported from 1994 through 2002 
when IRS had a highly publicized self-imposed moratorium on the use of 
the aggregate assessment method, belies IRS's contentions and 
demonstrates that the threat of an aggregate assessment is wholly 
unnecessary to assure tip reporting compliance. Moreover, IRS has many 
options available to it short of individual employee audits to increase 
employee tip reporting.
    Certainly IRS could collect a substantial amount of its alleged 
shortfall by simply sending employers a bill for their share of FICA 
taxes on the additional tips their employees report on Forms 4137 (see 
infra pg. 6). Additional amounts could also readily be collected by 
pursuing by letter, the list of employees provided IRS annually to whom 
an allocation was made, as intended by Congress in enacting the 8% tip 
allocation provision. To the extent perceived additional unreported 
amounts warrant further pursuit, ``desk'' audits could be undertaken by 
sending the identified employees computer generated assessments for 
amounts in excess of the allocation. At least then, employees could 
defend against such proposed assessments and employers could avail 
themselves of the defenses employees have brought to bear against IRS 
assessments.
    All of these options are available to IRS at minimal time and 
expense with the crucial distinction of identifying individual 
employees and amounts of any additional tip earnings of individual 
employees so their wage earnings records for social security benefit 
purposes could be credited for such additional amounts with greater 
assurances that the amounts assessed were actually received by the 
individual employees.
    Aggregate estimate assessments are unfair to employees because 
without the necessary employee records, employers are deprived of an 
effective means to defend against inflated assessments. The historical 
practices of tips being received directly from customers and tip 
sharing among employees make it impossible for the employer to assure 
the accuracy of employee tip reporting. Requiring the employer to do so 
will effectively mean requiring all employees to report at a flat, 
administratively workable rate--grossly unfair to the employees who do 
not make that amount. These results can not be sanctioned when the 
aggregate estimate method has proved to be totally unnecessary to 
increasing tip reporting compliance and when IRS has many more 
palatable options at its disposal to solve unreporting problems.
    For these reasons we support HR 2034 and urge its passage.

                                 <F-dash>

    Chairman HOUGHTON. Thanks very much, Ms. Power. Mr. Rosic?

STATEMENT OF EDWARD A. ROSIC, JR., VICE PRESIDENT AND ASSISTANT 
   GENERAL COUNSEL, MARRIOTT INTERNATIONAL, INC., BETHESDA, 
                            MARYLAND

    Mr. ROSIC. Good morning, Mr. Chairman and Members of the 
Subcommittee. Thank you for giving me the opportunity to appear 
today. I am Ed Rosic, testifying on behalf of Marriott 
International. Marriott is a leading worldwide hospitality 
company with over 2,700 lodging properties and over 128,000 
employees. In the mid-nineties, Marriott joined a group of 
hotel and restaurant industry members to work with the IRS to 
develop a program that would be an alternative to the IRS' 
enforcement strategy for reporting tip income. The result was 
the TRAC program, that Ms. Power referred to. The TRAC program 
is an outstanding example of the IRS working with the taxpayer 
community to produce a viable alternative to address the 
concerns of both the U.S. Department of the Treasury and many 
in the business community. For many employers, it has provided 
a framework for improved compliance with the tax rules 
governing tip income.
    The development of the TRAC program with the IRS was a very 
significant undertaking, and the implementation of TRAC 
required a major commitment on Marriott's part. The change to 
comply with the TRAC requirements involved Marriott investing 
significantly in systems; revamping procedures in payroll 
accounting and the food and beverage operations; production of 
new human resources operating procedures and development of 
communication and educational materials. The decision to 
implement TRAC also required taking risks in employee relations 
and in the company's ability to compete in the labor market for 
talent. As you can imagine, some individuals might think it 
more attractive to work for a company that is not interested in 
compliance.
    Under TRAC, the employer makes a series of substantial 
commitments: to establish procedures for tracking all of the 
tip reports by the employees; to educate and periodically 
update the employees as to their tip-reporting obligations; to 
file all the required employment tax and information returns 
and timely pay the taxes; and to maintain certain tip-reporting 
records and submit to compliance reviews of those records at 
the IRS' request. The IRS in turn makes commitments under the 
TRAC program: to assess the employer for its share of 
employment taxes on unreported tips only based on employee data 
gathered by the IRS from individual employee tax returns or 
audits of those employees; to revoke the TRAC agreement 
retroactively only if the employer fails in the two main 
commitments it makes on education and recordkeeping; and to 
revoke the TRAC agreement prospectively in the event the 
employer fails to satisfy the reporting and payment 
requirements, and then only on the basis of employee unreported 
tips if the IRS determined based on an examination that there 
has been substantial and collective underreporting by employees 
for two continuous quarters.
    These substantial commitments on the part of employers and 
the IRS under TRAC form the basis for cooperation and effective 
improvement in the reporting of tip income. Under this program, 
Marriott has been given positive marks by its IRS examination 
team because since we joined the TRAC program, the dollar 
amount of reported tips has nearly tripled on a sales increase 
of only 47 percent. As part of Marriott International's tip-
reporting education efforts, the company has produced a number 
of tools, including brochures, managers' guides, posters, 
paycheck stuffers, and most recently, online tutorials. While 
Marriott has found the TRAC program to be worthwhile and 
successful, there are some aspects of the rules relating to 
tip-reporting that could be improved to ease the burden on 
employers and make tip-reporting compliance efforts more 
efficient and effective for both the IRS and employers. The 
current information reporting requirements are fairly rigid and 
are unnecessarily burdensome to some employers. The tip and 
sales information is required to be maintained on the basis of 
individual food or beverage outlets. For many employers who 
operate multiple outlets at a single location, maintaining the 
data at the outlet level is expensive, can interfere with 
business operations, and produces records with no incremental 
value to the compliance effort. Many employers would find it 
more practical if the option were provided to maintain tip and 
sales information by business location rather than on an 
outlet-by-outlet basis. This option would substantially reduce 
the recordkeeping burden but preserve the integrity of the 
information and compliance effort.
    It would also be useful for employers participating in the 
TRAC program, or variations of it, if uniform education and 
training materials were available through the IRS in a user-
friendly manner but with content that has broad acceptance and 
that employers would be able to adopt or adapt to their 
particular situation. In conclusion, the TRAC program has been 
a real success for both Marriott International and the IRS and 
demonstrates that cooperative efforts by industry and 
government can yield positive results. It is our hope that the 
IRS extends the program beyond the end of 2005, hopefully 
indefinitely. Thank you.
    [The prepared statement of Mr. Rosic follows:]
    Statement of Edward Rosic, Vice President and Assistant General 
       Counsel, Marriott International, Inc., Bethesda, Maryland
    Thank you for the opportunity to submit this statement. I am Edward 
Rosic, testifying on behalf of Marriott International, Inc. Marriott 
International is a leading worldwide hospitality company with over 
2,700 lodging properties in the United States and 68 other countries 
and territories. The company is headquartered in Washington, D.C., and 
has approximately 128,000 employees and was ranked as the lodging 
industry's most admired company and one of the best places to work for 
by FORTUNE.
    In 1994 and 1995, Marriott International joined a group of hotel 
and restaurant industry members to work with the Internal Revenue 
Service to develop a program that would be an alternative to the 
Service's enforcement strategy for reporting of tip income. The result 
was the Tip Reporting Alternative Commitment or TRAC program. The TRAC 
program is an outstanding example of the Service working with the 
taxpayer community to produce a viable alternative to address concerns 
of both the Treasury Department and many in the business community. For 
many employers, it has provided a framework for improved compliance 
with the tax rules governing tip income.
    The development of the TRAC program with the IRS was a very 
significant undertaking, and the implementation of TRAC required a 
major commitment. The change to TRAC required our company's investment 
in systems; revamping of procedures in payroll accounting, and food and 
beverage operations; production of new human resources operating 
procedures and development of communication processes and materials. 
Moreover, the decision to implement TRAC required taking risks in 
employee relations and in the company's ability to compete in the labor 
market for talent as individuals might think it more attractive to work 
for a company not interested in compliance.
    Under TRAC, the employer makes a series of commitments:

    <bullet>  To establish procedures for tracking all tips reported by 
employees to the employer;
    <bullet>  To educate and periodically update directly and 
indirectly tipped employees as to their obligation to report all their 
tips;
    <bullet>  To file all the required employment tax and information 
returns and to timely pay the taxes; and
    <bullet>  To maintain certain tip reporting records and to submit 
to compliance reviews of those records at the Service's request.

    The IRS also makes commitments under TRAC:

    <bullet>  To assess the employer for its share of employment taxes 
on unreported tips only based on employee data gathered by the IRS from 
individual employee tax returns or audits of the individual employees;
    <bullet>  To revoke the TRAC agreement retroactively only if the 
employer fails to substantially comply with the employer's commitments 
on education or tip-reporting procedures; and
    <bullet>  To revoke the TRAC agreement prospectively in the event 
the employer fails to satisfy the reporting and tax payment commitment 
or, on an establishment-by-establishment basis, if the IRS determines 
that the employees of an establishment have collectively and 
substantially underreported tip income for at least two continuous 
calendar quarters.

    These substantial commitments on the part of employers and the IRS 
under a TRAC agreement form the basis for cooperation and effective 
improvement in the reporting of tip income. Under this program, 
Marriott has been given positive marks by its IRS examination team 
because since we joined the TRAC program the dollar amount of reported 
tips has nearly tripled, while applicable sales increased 47%.
    As part of Marriott International's tip reporting education 
efforts, the company has produced a number of tools, including:

    <bullet>  ``100% Tip Reporting'' brochures in English and Spanish;
    <bullet>  A leader's guide to conducting tip reporting educational 
meetings at new establishments or for newly hired employees;
    <bullet>  Posters and paycheck stuffers highlighting the tip 
reporting obligation;
    <bullet>  A form for employees to sign acknowledging attendance at 
a tip reporting training meeting (English and Spanish versions);
    <bullet>  An on-line tutorial for newly hired employees or as a 
refresher course for existing employees to teach the tip reporting 
requirements; and
    <bullet>  An on-line tutorial about tip reporting compliance for 
managers and human resources professionals.

    While Marriott International has found the TRAC Program to be very 
worthwhile and successful, there are some aspects of the rules relating 
to tip reporting that could be improved to ease the burden on employers 
and make tip reporting compliance efforts more efficient and more 
effective for both IRS and employers:

    <bullet>  Current information reporting requirements are rigid and 
can be unnecessarily burdensome to some employers. The tip and sales 
information is required to be maintained on the basis of individual 
food or beverage outlets. For many employers who operate multiple 
outlets at a single location or in close proximity, maintaining the 
data at the outlet level is expensive, interferes with business 
operations and produces records with no incremental value to the 
compliance effort.
    <bullet>  Many employers would find it more practical if the option 
were provided to maintain tip and sales information by business 
location rather than by individual food & beverage outlet at a given 
business location. This option could substantially reduce the 
recordkeeping burden, while preserving the integrity of the information 
and compliance effort.
    <bullet>  It would be useful to employers participating in the TRAC 
program, or variations of it, if uniform education and training 
materials were made available through the IRS in a user-friendly manner 
and with content that has broad acceptance and that employers would be 
able to adopt or adapt. Now that the program is nearly 9 years old, a 
renewed effort for industry-IRS cooperation on education and training 
materials could be useful.

    In conclusion, the TRAC program has been a real success for both 
Marriott International and the IRS and demonstrates that cooperative 
efforts by industry and government can yield positive results. It is 
our hope that the IRS extends the program beyond the end of 2005, 
hopefully indefinitely.

                                 <F-dash>

    Chairman HOUGHTON. Thank you very much, Mr. Rosic. Mr. 
Tinsley?

 STATEMENT OF EDWARD R. TINSLEY, CHAIRMAN AND CHIEF EXECUTIVE 
   OFFICER, K-BOB'S USA, INC., ALBUQUERQUE, NEW MEXICO, AND 
           TREASURER, NATIONAL RESTAURANT ASSOCIATION

    Mr. TINSLEY. Thank you, Chairman Houghton and distinguished 
Members of the Committee, for allowing me to testify on behalf 
of the NRA. My name is Ed Tinsley, and I am Chairman and CEO of 
the K-Bob's steakhouse chain. We are located in Texas, 
Oklahoma, Colorado, and New Mexico. We employ about 1,000 
people system-wide in our steakhouses, of which about 40 
percent are tipped employees. I am also the current Treasurer 
of the NRA.
    In addition to representing the industry and urging the Tip 
Tax Fairness Act, the passage of this is offering some insights 
into the problems faced by restaurant operators in complying 
with tip agreements, and I also would like to share some 
personal perspectives on a program that we have developed in 
our company to help encourage tip-reporting. I have had the 
honor of testifying before Congress on one other occasion, so I 
know the rule: be brief and get to the point. I think 
Congressman Pomeroy can relate to this because he is--I already 
mentioned he represents some ranchers. If you have a long rope, 
it will get you in trouble. You need a short rope and a fast 
horse.
    The reason we are supporting the Tip Tax Fairness Act is 
when the Supreme Court upheld the IRS' ability to conduct 
employer-only audits and aggregate assessments, they indicated 
in that opinion that they felt like Congress would ultimately 
need to decide this. In most cases, aggregate assessments 
inflate the employer's liability and leave employers with 
little to no choice or recourse of how to challenge an 
assessment. Employers cannot prove or disprove whether 
employees receive a certain amount of any tipped income. I know 
of no other industry or business where the IRS places such an 
onerous burden upon employers and managers in this manner. The 
burden also adds tension and is destructive to a relationship 
where we both have common goals, the IRS and business.
    As an industry, the NRA and the restaurant industry, we 
pride ourselves on being employers to 12 million people 
nationwide. We are the largest private employer in the country. 
Forty percent of all America's workforce today worked in our 
industry at one time. Twenty-seven percent of all employees, 
this is their first-time job through our industry, so that goes 
without saying that we believe in education, and it goes down 
the ranks, whether it is teaching the basic work skills of how 
to show up to work, teaching hygiene, teaching serve safe, but 
it also incorporates teaching tip-reporting and we are 
committed on the educational side.
    What is creating more concern for employers is the fact 
that the Supreme Court decision has given the IRS a new license 
to go forth and assess with even less responsibility to create 
an accurate assessment. I would be happy to elaborate on this 
during questions and answers, but it is basically what Tracy 
alluded to. It is guesswork as to what the actual tips are, and 
that is just not right. The precedent set by this decision has 
restaurants nervous and looking for ways to minimize their 
exposure to such an assessment, which brings me to the TRAC. 
The TRAC was designed to improve tip-reporting among our 
industry by requiring employers to implement education and 
recordkeeping. However, the devil is in the details.
    I chose not to sign a TRAC agreement with the IRS for two 
basic reasons. One is I do not like signing a contractual 
agreement with an entity that does not have my company's best 
interest at heart. Second, I do not like signing an agreement 
with a company that I have to do business with that has the 
propensity to change personnel up and down frequently, because 
it is always a new deal, it is a new date every time you go in. 
I think those problems are what really stem from my decision to 
create our own program in-house.
    I think also, too, there is still a significant exposure 
that remains even after you do sign a TRAC agreement because 
there is no retroactive protection, and there is inconsistent 
indications from the IRS as to how that retroactive issue will 
be handled. We also understand that the TRAC program will 
sunset in 2005, and there has been also no indication from the 
recent Supreme Court decision also, too, that this will be 
extended in any manner. That also is pretty much of a 
disincentive to the IRS to continue with the TRAC program. 
There are instances in our industry and in our association 
where certain companies have been held to higher standards once 
they have signed the TRAC agreement, performance standards that 
go beyond what the TRAC agreement actually says. I will expound 
on that in questions and answers if you would like.
    Last, the due process issue with TRAC agreements is almost 
like this: the IRS serves as the prosecutor, the judge, and the 
jury, and that makes it very difficult. Our program that we 
implemented was based on a lot of these concerns. What we did 
is we set up an employee benefits program that addresses tip-
reporting, but it addresses a program that we wanted to show 
our employees that we care about their future and their 
welfare, and that is called K-Care. What we do as a company is 
we match 5 percent of all reported tips into a mutual fund that 
is shared then across-the-board with all employees in the 
steakhouse, whether they are the dishwasher, the hostess, or 
what, based on the hours that they work.
    We also have a vacation earnings module that is pertinent 
to K-Care that enables a server, when they report more tips, 
their hourly wage is more, so they earn more vacation earnings 
each quarter. We have seen a 25- to 30-percent increase in our 
tip-reporting over the last 4 to 5 years because of this. I 
feel like that if industry can come up with a solution and 
implement it through proper marketing efforts and assistance 
from the IRS, that could be an answer. Employers struggle with 
how to balance the issues with the IRS and those challenges 
that we have in maintaining a positive relationship, at the 
same time how to manage and operate a small business. We do not 
wake up every morning patting our fingers saying, how can we 
help the IRS collect their taxes? We are worried about payroll. 
We are worried about leases. We are worried about food costs 
and all of those things and providing jobs.
    I think the only method that we have left is for Congress 
to help clarify this issue and get away from what aggregate 
assessments have done in deteriorating the intent of the TRAC 
agreement. We do not want to be the IRS police any more than 
you would in your previous businesses back home, or if you do 
have a business back home. I do not think it is our 
responsibility, nor should it be the employer's, to be the IRS 
police. I thank you for this opportunity to testify.
    [The prepared statement of Mr. Tinsley follows:]

Statement of Edward R. Tinsley, CEO, K-Bob's USA, Inc., and Treasurer, 
        National Restaurant Association, Albuquerque, New Mexico

    Chairman Houghton and distinguished Members of the committee, thank 
you for inviting me to testify today on behalf of the National 
Restaurant Association about the restaurant industry's ongoing concerns 
with the Internal Revenue Service's enforcement practices with regard 
to tipped income.
    I am the President and CEO of K-Bob's USA, Inc., a steakhouse chain 
with locations throughout New Mexico, Texas, Oklahoma and Colorado. 
Systemwide we employ roughly 1000 people, of which 40 percent are 
tipped employees. Currently, I am the Treasurer for the National 
Restaurant Association.
    Although I am here today to represent the National Restaurant 
Association, I have also been asked to talk about the K-Care program, a 
unique initiative I created that has resulted in increased tip 
reporting among my employees.
    By way of background, we want to remind the committee on the 
history of this issue.
    In 1988, Congress required employers to begin paying FICA payroll 
taxes on all employee tips. Congress concluded that tipped employees 
earn a substantial portion of their income through tips. Therefore, 
Social Security benefit payments should be determined with respect to 
the entire amount of tips, and Congress determined that employers 
should be subject to tax on all tips, so that the employees' wage 
earnings records can be properly credited.
    In 1993, Congress enacted a federal tax credit to provide some 
relief from paying a matching FICA tax on tips given by customers to 
restaurant servers. The so-called 45(B) credit allows employers to 
claim a federal income tax credit for the FICA taxes they pay on any 
tips above the minimum-wage tip credit. In regulations, the IRS limited 
the scope of this credit to (1) tips reported by employees and (2) tips 
received after January 1, 1994.
    Congress further clarified the law, rejecting the IRS' 
interpretation, in the 1996 minimum wage/tax bill by allowing 
restaurateurs to claim the credit for FICA taxes paid after January 1, 
1994, on both reported and unreported tips, and regardless whether 
those tips were received before or after January 1, 1994. This 
clarification was necessary because many employers are made to pay 
additional FICA taxes based on IRS's tip audits and assessments, as a 
consequence of employee underreporting of tips.
    In determining tax liability on unreported tips, the IRS uses an 
``employer-only'' aggregate assessment method, whereby the agency looks 
at a restaurant's records, primarily credit card tips' receipts, to 
come up with a total amount of tips it thinks all employees should have 
reported. The IRS then bills the restaurant-operator for the employer's 
share of FICA taxes (currently 7.65%) on any allegedly unreported tips, 
but does not examine individual employees' records or credit employer 
FICA tax payments to individual employees' Social Security accounts.
    The IRS's approach has been challenged in a number of court cases. 
In June, 2002 the U.S. Supreme Court took up the issue and upheld the 
practice based on the Court's inability to find a definite expression 
of congressional intent to prohibit the IRS from conducting such 
``employer-only'' audits and aggregate assessments. In its opinion, the 
Court invited the industry to seek legislative action to clarify 
congressional intent behind the law.
    The National Restaurant Association believes Congress never 
intended to grant the Internal Revenue Service (IRS) the authority to 
use aggregate assessments to bill employers for FICA payroll taxes on 
allegedly unreported tips. The Association believes statutory language 
is needed to clarify Congressional intent for the following reasons:

    1.  The purpose of paying FICA taxes is to create a wage history 
for individuals to draw future Social Security benefits. When the IRS 
issues an aggregate assessment for FICA taxes owed on unreported tips, 
the amount paid by the employer is never credited to the employee's 
social security wage records.
    2.  Aggregate estimates inaccurately inflate an employer's tax 
liability. In making these aggregate estimates, the IRS assumes--quite 
often, incorrectly--that (1) customers who pay cash for their meals tip 
at exactly the same percent as customers who pay by credit card; (2) 
all tipped employees fail to report their tips; (3) all tipped 
employees fail to report the same amount; (4) customers never ``stiff'' 
their servers--i.e., leave them no tip.
    3.  The IRS's ``employer-only'' approach puts the burden of 
enforcing tip-reporting laws on employers, rather than the IRS. It 
places on employers the unique burden of disproving either that 
employees underreported their tips or the amount underreported. Justice 
Sandra Day O'Connor asked the government attorney representing the IRS 
in the Supreme Court case, Fior d'Italia v. U.S., how an employer could 
disprove employees' underreporting of tips? The IRS' attorney told her 
during oral argument that the only way she could imagine this being 
done was for employers to hire ``honest employees.''

    The Honorable Wally Herger and the Honorable John Tanner, both 
distinguished Members of this committee, have introduced legislation to 
help clarify congressional intent. H.R. 2034, the Tip Tax Fairness Act, 
would prohibit the IRS from imposing aggregate assessments for FICA 
taxes owed on allegedly unreported tips. The IRS would have to 
establish the actual amount of tips that were unreported. Further, the 
intent of the legislation is to ensure that the IRS credit assessments 
paid by employers for FICA taxes owed on unreported tips to the 
individual employee's wage credit accounts for purposes of the 
employee's Social Security benefits.
    The Association appreciates the effort Congressman Herger and 
Congressman Tanner have put forth on behalf of tipped industries. 
Passage of this legislation represents a top priority for the 
Association.
    Given the association's legal battles and legislative efforts, it 
would appear as if we have an adversarial relationship with the IRS. 
However, it is quite the contrary. Over the years, we have enjoyed a 
mutually respectful working relationship. I am a witness to that, 
having worked with the IRS on the concept of a non-contractual tip 
reporting agreement, which the IRS later rolled out as its new 
``EmTRAC'' program. The IRS has worked closely with the Association to 
make improvements to the agency's tip reporting programs and IRS higher 
level staff have been available on many occasions to meet with our 
member restaurants to discuss problems with tip reporting programs, 
such as the TRAC and EmTRAC. In return, the Association has spent a 
considerable amount of resources educating members about their 
employees tip reporting obligations. The Association created a tip 
reporting kit for restaurateurs to use to help comply with the TRAC 
agreement. And, at the request of the IRS, the Association now 
recommends, and has since the year 2000 that members seriously consider 
signing the TRAC or EmTRAC, as a means of protecting their restaurants 
from an employer-only audit and assessment.
    Until the time that our fundamental disagreement over the IRS 
employer-only practices are resolved via the legislation, the 
Association will work on ways to provide employers more complete 
protection from their current exposure to an employer-only audit and 
assessment.
    It is important to point out that restaurateurs currently have 
certain limited options that can minimize but do not eliminate their 
potential exposure to an employer audit and assessment. First, as 
mentioned, Congress passed in 1993 a tax credit for employers that pay 
FICA tax on servers' tips. The so-called the 45(b) tax credit, however, 
cannot be applied to all taxpayers. Like most other credits and 
deductions, it cannot be taken by taxpayers filing under the 
alternative minimum tax, a growing predicament for more and more 
restaurateurs every year. Alternately, the credit cannot be applied 
when a taxpayer has no tax liability, i.e. they did not have a 
profitable year. According to National Restaurant Association 
statistics, only 40 percent of restaurant companies with tipped 
employees take advantage of the 45(b) tax credit. Second, and in 
addition to the 45(b) tax credit mentioned earlier, restaurateurs can 
enter into a tip reporting agreement with the IRS. The agreement 
requires the agency to conduct employee tip examinations before 
assessing an employer for back FICA taxes owed, in exchange for the 
employer's commitment to educate employees about their tip obligations 
and maintain records on the employee's tips (discussed below). However, 
employers are not completely sheltered by this option either.
    Another potential option is for an employer to enter into a tip 
reporting agreement with the IRS. The most widely used program offered 
to restaurant operators is the Tip Reporting Alternative Commitment or 
TRAC. Under the TRAC, an employer agrees to advise his or her workers 
of tip-reporting requirements, implement procedures by which employees 
report tips, maintain specific records, and comply with tax reporting, 
filing and payment requirements. In return, the IRS agrees to not 
conduct employer-only audits and assessments against the employer for 
the time period the employer is under TRAC. However, the TRAC has 
numerous drawbacks.
    Consider the fact that there are roughly 225,000 table service 
restaurants in this country and roughly 18 percent of them are 
operating under a tip reporting agreement. Clearly, the TRAC is not 
providing the appropriate exposure from an audit and assessment to 
entice the majority of restaurateurs to enter into a voluntary 
agreement.
    I chose not to sign the agreement because, like many other 
restaurateurs, I do not like the idea of signing an agreement with the 
IRS. I do not like executing an agreement with an entity, like the IRS, 
which has no positive working relationship with our company, and an 
entity which has the high propensity to change personnel in who would 
be handling the relationship, thereby diminishing, or simply 
eliminating, all continuity of the relationship.
    The employer obligations under that TRAC are significant. The 
requirements to educate employees and keep track of their tip reports, 
are in addition to the basic education and training an employer must 
engage in order for the employee to begin their job in the restaurant. 
This is particularly onerous for an industry that deals with a large 
population of young, transient and/or seasonal employees. National 
Restaurant Association research shows that the 27 percent of adults 
found their first job in the restaurant industry. A significant job-
training responsibility, coupled with the additional educational duties 
required if you sign the TRAC.
    For those that do sign the agreement, significant exposure remains. 
An important point that often gets misinterpreted by employers is that 
under the TRAC an employer is not protected from an audit and 
assessment, just an employer-only assessment. Additionally, the 
employer is not given retroactive protection. The protections of the 
TRAC only apply from the day it is signed forward. There have been 
inconsistent indications from IRS officials that the TRAC does apply 
backward beyond the date it is signed, yet no formal statements have 
been made to that point, and the wording of the TRAC belies the IRS' 
representation. Such a commitment would certainly be in line with the 
agency's objective of attracting more companies to the program, thus 
improving overall tip reporting.
    The Association also believes it is important to note the TRAC 
program is set to expire at the end of 2005. There is concern within 
the industry that the IRS hasn't yet announced its intentions to extend 
the program, and that the recent Supreme Court ruling has provided a 
disincentive to do so. The uncertainty of the program's future creates 
further gaps of exposure. The Association would appreciate a commitment 
by the IRS that this program will continue as it helps the Association 
in advising their members on the success of the program.
    In addition to these concerns, I can offer the following insights 
on behalf of the National Restaurant Association's larger restaurant 
companies:
    Proper tip reporting by employees is a matter of great importance 
to larger restaurant chains, some of which have more than 1,000 
restaurant units operating nationwide. These large employers are faced 
with the challenges and burdens of maintaining procedures and systems 
that facilitate and encourage tip reporting by employees; timely filing 
the requisite tax and information returns; educating employees; and 
collecting, depositing, and reporting billions of dollars in employment 
taxes, including FICA taxes.
    For these reasons, large restaurant chains were among the first in 
1995 to embrace the opportunity to work in partnership with the IRS 
through the newly issued TRAC program to increase the level of cash tip 
reporting by employees. Because of their commitment to and 
participation in TRAC, the program quickly became the model for how the 
IRS likes to partner with stakeholders to increase compliance with the 
tax laws of the United States. More importantly, the TRAC program has 
resulted in a significant increase in the reporting of cash tips by 
employees.
    Nevertheless, following the Supreme Court's 2002 decision in Fior 
D'Italia, the industry has become increasingly concerned that the IRS 
may move away from its commitment to work cooperatively with large 
employers. A fundamental fact remains that restaurant employers are 
neither legally required nor factually able to guarantee that their 
employees will voluntarily report all cash tips received. Employers are 
concerned that good-faith compliance with the TRAC program, 
requirements may not ultimately protect against the threat of 
``employer-only'' tip audits.
    Significant concerns have arisen over the IRS's administration of 
the TRAC program. There are reports of uneven treatment of similarly 
situated employers at the hands of local IRS personnel. That is, 
employers that may have very similar educational programs and reporting 
procedures may be held to different standards by their local IRS 
employment tax specialists.
    In some cases, IRS local teams have sought to hold large taxpayers 
to compliance and performance standards that are not set forth in the 
TRAC contract. For example, the IRS has argued that employers who have 
entered into a TRAC agreement must somehow ensure that directly tipped 
employees report ``100 percent'' of the cash tips they receive from 
customers. The IRS has also attacked the practice of employee ``tip-
outs''--where a server shares part of his or her cash tips with a 
bartender or bus person--even though the TRAC agreement explicitly 
contemplate the sharing of tips. Moreover, the IRS has even asserted 
that the restaurant employer is not in compliance with the TRAC 
agreement if the tip-outs reported by servers do not reconcile with the 
tip-ins reported by the employees with whom the tips are shared, even 
though such reconciliation is not required by the TRAC contract, by the 
Internal Revenue Code, or by IRS regulations.
    Many restaurant employers are fearful that the IRS has even 
predetermined a cash tip reporting percentage threshold that, if not 
met, will lead to threatened or actual revocation of the TRAC 
agreement. Such a position is not supported by the law or the TRAC 
contract. In fact, the TRAC agreement does not set forth any requisite 
level of ``effectiveness'' in terms of cash tip reporting percentage 
results. Indeed, the original working group of IRS and industry 
representatives that developed the TRAC framework considered--and 
rejected--an approach that would have required a restaurant's cash tip 
reporting percentage to be within a specified range of charged tip 
reporting.
    Despite their good-faith efforts to comply with the TRAC 
requirements, many large restaurant chains live in fear of TRAC 
revocation and a subsequent employer-only audit. This state of 
uncertainty exists despite an IRS promise in 1999 that restaurant 
employers would not be held liable for employee non-reporting if they 
made good-faith efforts to follow the TRAC guidelines. IRS News Release 
IR-1999-84 stated:

         The IRS will no longer revoke TRAC agreements in cases where 
        employers make a good-faith effort at following the guidelines 
        but employees still fail to report tips. Instead of pursuing 
        the employers in such situations, the IRS will focus on the 
        employees who are not in compliance with tip reporting.

    Notwithstanding this promise by the IRS, the NRA is not aware of 
any cases where the IRS has initiated audits of large chain restaurant 
employees where it may have observed low cash tip reporting by those 
workers.
    The NRA is particularly concerned that the IRS may be revoking TRAC 
agreements without warning to or input from the affected restaurant 
employers. This places employers in a position of being procedurally 
defenseless prior to revocation, with no due process opportunity to 
address, contest, or cure any asserted breaches in contractual 
obligations. Moreover, an IRS decision to revoke without warning may 
actually result in revocation at the very time a restaurant employer's 
cash tip reporting percentages are improving dramatically--that is, 
when the cash tip reporting rate is moving in the right direction. TRAC 
revocation should be a last resort, a step taken where an employer is 
not working in good faith with the IRS.
    Unless the TRAC program is properly administered, the NRA believes 
that the IRS will lose a valuable tool for fostering the intended 
cooperative environment that promotes employee tip reporting compliance 
over the long term. The TRAC agreement was intended to be method for 
employers and the IRS to resolve disputes before they arose. With 
proper administration, we believe the TRAC program can continue to be 
part of a systemic tip reporting solution. The industry stands ready to 
work with the IRS and Congress in that regard.
    However, there are areas where progress appears to be at a stand 
still. First and foremost, I have to restate that the National 
Restaurant Association continues to believe that the IRS has gone 
beyond its authority in conducting employer-only audits and 
assessments. The Association believes employer-only audits and 
assessment create inaccurate and inflated assessments that employers 
are incapable of challenging. An employer has virtually no recourse 
when the IRS issues an aggregate assessment. How does the employer 
prove or disprove what an employee received in cash tips? In fact, 
another statement by the IRS' attorney during the oral arguments in the 
case Fior d'Italia before the Supreme Court, and there was audible 
laughter in the courtroom during the response of the government 
attorney when she acknowledged that an employer could obtain an 
employee's complete tip income records only by filing a lawsuit against 
the worker.
    I can offer more personal insights on the newest of the tip 
reporting programs, the EmTRAC. The EmTRAC provides employers 
protection from employer-audits and assessments in return for employer 
commitment to employee tip reporting education efforts. The EmTRAC 
requires employers to design a tip reporting education program and 
submit that program for evaluation by the IRS. Unlike the TRAC, the 
EmTRAC allows for flexibility in the design and implementation of tip 
reporting education programs. The most significant difference between 
the two programs is that the TRAC requires employers to enter into a 
contractual agreement with the IRS. It is the contractual agreement 
aspect of the TRAC that has kept many restaurants from participating. 
The EmTRAC does not require signing a contract, only complying with the 
program created by the employer, as approved by the IRS.
    The EmTRAC provides a more appealing option for my company, given 
the tip reporting initiative I developed known as K-Care. I did not 
create the K-Care program to protect my company from an audit; I did it 
prior to the IRS approving the EmTRAC approach and because at one 
point, K-Bob's staff turnover was more than double the average for the 
restaurant industry--230 percent! I realized we had to do something to 
change this pattern, not only for the sake of my company, but also for 
the image of the entire restaurant industry.
    K-Care began out of the desire to more tangibly show hourly 
employees how much we care about them, how much they mean to the 
success of our business and how much we are willing to do to help them 
meet their career and financial goals. We assumed our employees knew we 
cared about them, but an employee survey surprised us by revealing that 
employees would recommend our restaurant for a meal but not for a job--
only 33 percent felt the chain was interested in their welfare. We knew 
we had to create a more meaningful way to show we cared. And we thought 
the best way to do that was to invest in our employees. We decided to 
base K-CARE on reported tips, because tips are the easiest way to 
measure customer service in a table service restaurant. The harder you 
work, the more you earn. Good customer service is a team effort and K-
CARE rewards all team members--from the host and the dish washer--to 
the server and the line cook.
    Servers report their tips, and K-Bob's matches those amounts with a 
5-percent contribution into a mutual fund: New England Financial's 
Growth Opportunities Fund. The more tips a server reports, the higher 
the matching amount. The mutual fund is split among all employees--
front-and back-of-the-house--based on the hours they worked during any 
given quarter. Employees enroll at the beginning of a financial quarter 
and must be employed for the entire quarter to share in the earnings 
for that period. Employees can get access to their money once a year. 
They also receive paid vacation days, based on a formula that converts 
their reported tips into an hourly wage. Quarterly statements are 
mailed to employee's homes, just like a 401(k) statement. We also post 
the names of the top 10 earners on the restaurant bulletin board, to 
help other employees comprehend the long-term benefit of savings.
    The results of the program are more than encouraging to K-Bob's 
management. What we found was that the K-CARE program not only gave 
employees more money, it improved tip reporting. Reported tips went up 
by 20 percent. In addition, staff turnover, which had been 230 percent, 
fell to 110 percent. Employees' attitudes toward the chain exceeded the 
goal. K-Bob's wanted to increase to 40 percent the number of employees 
who ``totally agree'' that the chain is concerned about their welfare. 
In the latest survey 61 percent answered that way. For K-CARE, the 
return on investment has been undeniable.
    Consider the fact that the restaurant industry is the largest 
private sector employer in this country, and roughly 50 percent of our 
employees are under the age of 25. In fact, the restaurant industry is 
the first job for many of these individuals and I believe we can have a 
significant impact on their attitudes towards savings and investment if 
we can start educating them early.
    Accompanying National Restaurant Association staff, I have met with 
the IRS to discuss the K-Care program along with the structural outline 
of a program submitted through the National Restaurant Association, as 
well as my concerns with signing a TRAC. I think it is fair to say that 
the concept of the K-Care program contributed to the creation of the 
EmTRAC--to encourage tip reporting initiatives, without the 
intimidation of a contractual agreement. At the time, I believed, based 
on this experience that my program would be one of the first to qualify 
under the EmTRAC, but as of today it has not been officially approved. 
Many restaurant companies have expressed interest in K-CARE and I 
believe we could be successful in marketing this program to a wider 
audience if the program were approved under the EmTRAC. I should also 
note that the K-Care program does not qualify as a 401(k). 
Contributions made by employers and employees are taxable. In order to 
get K-Care qualified, I would have to jump through numerous 
bureaucratic hoops. Based on my previous experience, the paperwork 
alone is extremely complicated and overwhelming.
    I believe the EmTRAC could be a successful program and I hope the 
IRS can offer some insight on its use thus far by the restaurant 
industry. I would also recommend that the IRS do more to educate 
employers about its existence. I am sure the National Restaurant 
Association would help to distribute that information.
    Mr. Chairman, I hope this extensive testimony provides useful 
insights and I thank you for the opportunity to present them to this 
honorable committee.

                                 <F-dash>

    Chairman HOUGHTON. Thanks very much. Mr. Jablonski?

 STATEMENT OF JOSEPH J. JABLONSKI, CHAIR, TAX AND FINANCE TASK 
  FORCE, AMERICAN GAMING ASSOCIATION, AND EXECUTIVE DIRECTOR, 
           TAXES, AZTAR CORPORATION, PHOENIX, ARIZONA

    Mr. JABLONSKI. Thank you, Mr. Chairman. Good morning. My 
name is Joseph Jablonski. I am Executive Director, Taxes, of 
Aztar Corporation. Aztar is a casino gaming company 
headquartered in Phoenix. I am appearing today as Chair of the 
Tax and Finance Task Force of the American Gaming Association 
(AGA), the trade association of the commercial casino 
entertainment industry. Its members account for about two-
thirds of commercial gaming revenue in the United States.
    The AGA members employ a broad range of workers who receive 
tips from customers, including food and beverage workers, 
casino gaming staff, hotel bell staff, and parking valets. Tip-
reporting in the gaming industry has taken a somewhat different 
path from the other industries you have heard about today. We 
use a tip compliance agreement negotiated between the industry 
and the IRS. I am here today to explain how it works, the 
benefits to both sides, and the lessons we have learned.
    Under this approach, the employee agrees to report tips at 
a set rate specified for his or her job, shift, and location. 
These tips are included on the employee's W-2 along with the 
employee's regular wages. Taxes are then withheld on these tips 
and paid to the IRS. The employer agrees to take on the 
substantial administrative burden of implementing this new 
system. In exchange, the IRS agrees not to audit the employee 
or the employer on these tips for the current year or for prior 
years.
    Once in place, a tip agreement benefits both sides. The IRS 
benefits from revenue collection and dramatically reduced 
enforcement and collection costs. The employee benefits from 
IRS audit protection, reduced recordkeeping, and then having a 
verifiable income helpful in getting auto loans, home 
mortgages, and Social Security and retirement benefits. The 
employer benefits from audit protection and some certainty. To 
get there, you have to reach an agreement with the IRS that is 
administratively workable and that uses reasonable tip rates. 
These are voluntary agreements. Both the employer and the 
employee must choose to participate. Hence, the agreement must 
be reasonable, benefit the employee and the employer as well as 
the IRS, and be built on cooperation. Insistence on capturing 
every dollar of income and indifference to the employer's 
administrative burden and its employee relations will make the 
employers and the employees alike reluctant to participate.
    The key to the success of this voluntary program is 
reasonable tip rates for the employees. If the employee 
believes that the rate is fair and reasonable, he or she is 
more likely to sign on. The employer is in a delicate position 
here, standing between the IRS and its employees. The employees 
look to us to protect their interests, negotiating on their 
behalf with the IRS to try to get reasonable rates. The IRS has 
to be sensitive to this delicate dynamic. If the IRS seeks 
excessive tip rates, it not only discourages the employees from 
signing on, but it also chills relations between the workforce 
and the employer who is seen then as not advocating the 
employee interests with sufficient vigor. This undermines the 
employer's credibility in encouraging its employees to consider 
signing on to this agreement.
    The IRS also has to be sensitive to the administrative 
burden on the employer. The employer has to make a big 
investment of time, expense, and personnel to revamp its 
accounting, payroll, and computer systems to handle all of 
this, as well as to educate the employees. The employer also 
has to spend significant time working through tip rates with 
the IRS for its hundreds or sometimes thousands of employees. 
It is not feasible for the IRS to try to roll out the agreement 
all over the country at once. It really just bogs down the 
entire process. The gaming tip agreement has been successfully 
implemented in Nevada because we were able to negotiate 
reasonable tip rates with the IRS. We are hopeful for similar 
success in New Jersey if the IRS is willing to give the new 
agreement time to germinate. The IRS looks to expand the tip 
agreement approach across other gaming markets in other parts 
of the country, and potentially to other industries, success 
will depend upon a continuing recognition by the IRS that this 
is a voluntary program, both sides, in fact, must benefit, and 
there must be an administratively workable agreement with 
reasonable tip rates. Thank you for the opportunity to present 
these views on behalf of the AGA.
    [The prepared statement of Mr. Jablonski follows:]

  Statement of Joseph J. Jablonski, Executive Director, Taxes, Aztar 
                     Corporation, Phoenix, Arizona

    Good morning, my name is Joseph J. Jablonski. I am Executive 
Director, Taxes of Aztar Corporation, headquartered in Phoenix, 
Arizona. Aztar Corporation, with approximately $1.3 billion in assets 
and 2003 revenues of well over $800 million, operates three casino 
hotels in major gaming markets in Nevada and New Jersey, as well as two 
riverboat casinos.
    I am appearing today in my capacity as Chair of the Tax and Finance 
Task Force of the American Gaming Association (AGA). AGA is a nonprofit 
trade association that represents the commercial casino entertainment 
industry in addressing federal legislative and regulatory issues. AGA 
also serves as a clearinghouse for information, develops educational 
and advocacy programs, and provides industry leadership in addressing 
issues of public concern. AGA has 19 casino members which own or 
operate more than 150 gaming properties throughout the United States, 
accounting for approximately two-thirds of the country's commercial 
gaming revenue. AGA members employ a broad range of workers who receive 
tips from customers in the course of their employment, including food 
and beverage workers, casino gaming staff, hotel bell staff, and 
parking valets.

Overview of the Gaming Industry Tip Compliance Agreement

    As others this morning have explained, the general rule of current 
tax law is that an employee who receives tips is required to regularly 
submit a report of his or her tips to the employer. The employer then 
withholds employment and income tax from the employee's wage and remits 
the employee's share along with the employer's share of the employment 
tax to the Internal Revenue Service (IRS) and reports such tips to the 
employee and the IRS on Form W-2.
    Tip reporting in the gaming industry has taken a somewhat different 
path, beginning more than ten years ago with the negotiation of a tip 
compliance agreement in the major gaming market of Nevada. This 
original Nevada tip agreement worked well for the employer, the 
employee, and the IRS alike for a decade. The Nevada tip agreement 
expired at the end of 2002. AGA led the industry effort that negotiated 
with the IRS a new tip agreement, known as the ``Gaming Industry Tip 
Compliance Agreement'' issued by the IRS as part of Revenue Procedure 
2003-35, 2003-1 C.B. 919. The new gaming tip agreement has been 
implemented in Nevada and most recently in New Jersey.
    I am here today to explain how this tip compliance agreement works 
in the gaming industry and to discuss the benefits for the employer, 
employee, and the IRS, as well as lessons we have learned in 
negotiating and implementing the tip agreement approach.
    The essence of the gaming tip agreement approach is that, if the 
employer agrees to take on the administrative burden of implementing 
and operating the tip reporting system and the employee agrees to 
report tips at or above a rate that is determined with some specificity 
by occupational category, the IRS agrees not to audit the employee and 
the employer with respect to the tips.
    More specifically, under this approach:
Employee Treatment

    <bullet>  The employee signs an agreement that he or she--
        <bullet>  will report at or above the rate specified for the 
        employee's particular occupational category, shift, and place 
        worked;
        <bullet>  can report below that rate if substantiated, but 
        subject to possible IRS review; and
        <bullet>  will file tax returns currently and for the prior 3 
        tax years.
    <bullet>  In exchange, the IRS agrees that it will not audit the 
employee's tip income for the current year as well as for prior years 
where no tip agreement was in place.

Employer Treatment

    <bullet>  The employer agrees to--
        <bullet>  encourage employees to sign up;
        <bullet>  withhold and pay the payroll taxes on the reported 
        tips;
        <bullet>  maintain certain records to compute future tip rates;
        <bullet>  report annually to the IRS information on its tipped 
        employees to enable the IRS to determine if they reported the 
        appropriate amount of tips;
    <bullet>  In exchange, the IRS agrees that it will not audit the 
employer for tip-related payroll taxes (meaning that mass ``employer-
only'' audits seeking to collect the employer's share of tax on some 
IRS collective estimate of alleged underreporting of tips by the 
employer's entire tipped workforce will not occur).
        <bullet>  the IRS can still assess employer portion of payroll 
        taxes on a non-participating employee if an actual audit of the 
        employee first proves underreporting of tips by the employee.

Other Key Terms of the Agreement

    <bullet>  Agreement runs for 3 years.
    <bullet>  If business conditions change, rates can be redetermined 
by the employer and the IRS working together.
    <bullet>  If employee participation falls below 75%, the IRS can 
come in and discuss the reasons (likely that employees view the 
specified tip rates as too high and in need of readjustment).
    <bullet>  If participation falls below 50%, the IRS can terminate 
the agreement its discretion.
    <bullet>  The employer can terminate at any time.

Lessons Learned from Negotiation and Implementation of the
Gaming Tip Agreement

    <bullet>  The tip agreement approach is not necessarily a ``one-
size-fits-all'' approach across industries

         In the gaming industry, the employer typically has a sizable 
        number of tipped employees working at a particular facility, 
        making the administrative burden of participating in a tip 
        agreement at least viable. The same may not be true of various 
        other industries in which there are a limited number of tipped 
        employees located in a particular market or limited number of 
        tipped employees scattered around the country in different 
        markets.

    <bullet>  The agreement is voluntary_there must be inducement for 
both the employer and the employee to participate

         A tip reporting agreement provides benefits to the IRS in the 
        form of revenue collection and dramatically reduced IRS 
        enforcement and collection costs and offers the potential of 
        benefits to an industry and its employees in the form of 
        certainty and a streamlined tip reporting system. However, 
        whether those potential benefits to the industry and its 
        employees are realized in a manner sufficient to warrant 
        industry and employee participation depends upon the 
        development of an administratively workable tip agreement that 
        utilizes reasonable tip rates. These are voluntary agreements 
        in which both the employer and the employee must choose to 
        participate, and hence the agreement must be reasonable.

         By contrast, insistence on capturing every possible dollar of 
        income and indifference to the employer's administrative burden 
        and its employee relations will produce reluctance by employers 
        and employees alike to participate in a voluntary tip agreement 
        program.

    <bullet>  To gain employee participation, tip rates must be 
reasonable

         The tips rates are determined by the employer and the IRS, in 
        consultation with employees and employee groups, from formulas 
        developed in case law, information from the casino's records, 
        observations of tips received, and discussions with employees. 
        These rates are estimates of amounts received by a theoretical 
        employee working in that occupational category, shift, and 
        location in the employer's facility. The actual amount of tips 
        received by an employee for a particular day or week may be 
        more or less than the calculated tip rate and will fluctuate 
        depending on the season of the year, the volumes of business, 
        changes in the employer's business operations and staffing 
        levels, and the level of service perceived by the customer.

         In discussions with gaming industry employees during the 
        recent negotiation of the new agreement, it is clear that their 
        acceptance of a formal tip compliance program is fundamentally 
        tied to the reasonableness of the tip rates. It has been the 
        gaming industry's experience that so long as its employees 
        believe the tip rates are reasonable, they are more likely to 
        participate in a tip compliance program because it reduces 
        their recordkeeping burden, gives them protection against IRS 
        examination, and produces a verifiable income that is helpful 
        in securing auto loans, home mortgages, and social security and 
        retirement benefits.

         By contrast, as the tip rate exceeds what the employee 
        believes he or she has earned, the employees become 
        increasingly vocal in opposition to the tip agreement approach 
        and decline to participate in the first instance or drop out if 
        they are participating. In negotiating the new tip agreement 
        with the gaming industry for Nevada, the IRS proposed a drastic 
        increase in tip rates in many cases, sometimes double or triple 
        the tip rate currently being applied to the employee. It took 
        several years of hard-fought negotiations by the industry with 
        the IRS to reach a more reasonable level.

         As the IRS looks to expand the gaming tip agreement beyond the 
        Nevada and New Jersey markets currently covered to other gaming 
        markets, it is important for the IRS to proffer reasonable 
        rates to induce participation by the employees who are new to 
        the tip agreement approach in these markets and are likely to 
        view it with uncertainty and a certain wariness. Similarly, as 
        these gaming tip agreements come up for renewal, it is crucial 
        that the IRS also take a reasonable approach in renegotiating 
        the tip rates, to maintain the success of employer and employee 
        participation in these voluntary agreements.

    <bullet>  To gain employer acceptance, the administrative burden 
must be workable and the IRS must be sensitive to the delicate 
interplay between the employer and its workforce on this issue

         The tip agreement approach effectively requires the employer 
        to serve as an intermediary between the IRS and the employee in 
        the tip agreement process, a delicate position for the employer 
        vis-`-vis its workforce. Accordingly, there must be a sense of 
        mutuality of benefit and cooperation for the IRS and the 
        employer under the agreement, to persuade employers to shoulder 
        the added responsibility of participation.

         While the employer realizes some administrative gains from 
        simplification of the payroll information-gathering process 
        using a consistent hourly rate for the position rather than 
        obtaining tip information from each employee, the employer 
        faces substantial new administrative burdens in implementing 
        the new agreement. The employer must incur the cost and effort 
        of significant systems changes in the tracking of time and 
        attendance and its payroll system to implement the tip 
        agreement approach. Changing the employer's systems is an 
        extensive project involving wholesale revamping of existing 
        accounting, payroll, and computer systems and creation of new 
        systems, requiring significant efforts by the employer's staff 
        in each of these administrative areas on top of their everyday 
        duties in running the business. For example, we have spent well 
        over a year developing and putting into place these 
        administrative system changes at our Atlantic City facility to 
        implement the recent New Jersey gaming tip agreement. The 
        employer is absorbing all of these costs. In addition, the IRS 
        should be wary of heaping extensive new reporting and 
        recordkeeping requirements on the employer under a tip 
        agreement.

         The employer's administrative burden of developing tip rates 
        is also extensive, and only exacerbated if the IRS seeks to 
        require frequent revisions. In this tip rate setting process 
        under the gaming agreement, separate tip rates are developed 
        for numerous job positions and outlet locations within the 
        employer's facility for each shift, covering hundreds or 
        thousands of tipped employees at each gaming property. For 
        example, there are different tip rates for the parking valet on 
        the graveyard shift, the bartender in the casino bar on the day 
        shift, the cocktail server on the swing shift in the quarter 
        slot area, the cocktail server in a high-end restaurant, to 
        name only a few. Special considerations must be given to tips 
        shared by wait staff with the busing staff. For employee 
        relations reasons, care must be taken across the various 
        positions and shifts so as not to upset the desirability of 
        those positions because of tip rate disparities among employees 
        receiving similar amounts of tips.

         More fundamentally, the IRS must be sensitive to the delicate 
        interplay between the employer and its workforce on this issue. 
        The recent experience of the Nevada gaming agreement 
        negotiation is that the employees look to the employer to 
        protect their interests here--they view the employer as 
        negotiating on their behalf with the IRS in an effort to 
        achieve reasonable tip rates. If the IRS is seeking rates that 
        the employees view as excessive, that not only will discourage 
        employees from signing on, but also will chill relations 
        between the workforce and the employer who is perceived as not 
        advocating employee interests with sufficient vigor, thereby 
        undermining the credibility of the employer in encouraging its 
        employees to consider participation in the tip agreement.

         In addition, the employee participation threshold required 
        under the tip agreement should be set at a reasonable level, 
        recognizing that gains to the fisc of bringing a significant 
        percentage of the employer's workforce into the tax withholding 
        system are far preferable to having no agreement at all, 
        particularly in light of the fact that under the agreement the 
        IRS will continue to have full enforcement and collection 
        authority with respect to tip income of nonparticipants. 
        Flexibility should be provided in the early stages in a new 
        market to permit the ramping up of participation. The causes of 
        drop-offs in participation should be explored in reasonable 
        discussions between the IRS and the employer, rather than 
        placing the employer in the role of ``policeman'' in a 
        situation where it has little practical control.

    <bullet>  The tip agreement must provide flexibility to respond to 
significant changes in circumstances

         In the immediate aftermath of the 9/11 attack, air travel 
        plummeted and with it tourist visits to Las Vegas. Under the 
        old Nevada gaming tip agreement, there was no adjustment 
        mechanism for tip rates, and so employees continued to be taxed 
        at the specified rates on tip income they were not in fact 
        receiving. Local IRS officials, including Jack Cheskaty and 
        Dennis Ozment, are to be commended for responding to this 
        severe problem by granting temporary relief for the employees 
        during the slowdown. One of the major selling points of the new 
        gaming tip agreement to employees is the creation of a formal 
        mechanism for adjustments in assumed tip income during economic 
        slowdowns.

    <bullet>  IRS pursuit of tip agreements in an industry must take 
care to avoid upsetting competition in the market

         Seeking to implement tip agreements on an employer-by-employer 
        basis among competitors in a particular market can create 
        competitive imbalances that are harmful to the employer. An 
        employer which agrees to implement a tip agreement program may 
        find its labor costs have now risen and its workforce 
        recruitment hindered relative to a competitor down the street 
        which does not operate under agreement. Accordingly, while tip 
        rates must necessarily be tailored to the employer's particular 
        circumstances and hence negotiated individually, the effective 
        date of tip agreements must be uniform across competitors in a 
        specific market.

    <bullet>  IRS efforts to expand a tip agreement nationally must not 
overextend the administrative resources of an employer operating in 
several different geographical markets

         As noted, the determination of tip rates is a very extensive 
        administrative undertaking by the employer, requiring 
        substantial time, expense, and commitment of personnel who have 
        other business responsibilities, to revamp its systems and 
        compute a broad range of tip rates. For an employer operating 
        in several different geographical markets, many of the same 
        personnel are involved in helping to determine the rates for 
        each market. The IRS's eagerness to ``roll out'' the gaming tip 
        agreement to different markets across the industry must be 
        tempered by the recognition that overextending the employer's 
        administrative resources and the same personnel will bog down 
        the entire process.

    <bullet>  Once a new tip agreement is put in place, the IRS must 
exercise patience in letting it germinate

         Once a new tip agreement is negotiated and put into place, in 
        practical terms the burden of implementing the new system and 
        encouraging employees to sign up falls to the employer. There 
        is an inevitable ramping up period for implementation in new 
        markets with employees who have never seen such a thing before. 
        Particularly in light of the dramatic reduction that the IRS 
        realizes in collection and enforcement costs under the new 
        system, the IRS must exercise patience in letting the new 
        agreement germinate. For example, the gaming tip agreement 
        approach was put into place in the new geographical market of 
        New Jersey just a few months ago. With the ink barely dry on 
        these new tip agreements, some IRS examinations staff already 
        are pressing to audit compliance with the new agreements.

Conclusion

    The Gaming Industry Tip Compliance Agreement, as issued in Revenue 
Procedure 2003 is fair and reasonable for both the industry and its 
employees and the IRS, subject to the negotiation of reasonable tip 
rates by the employer and the IRS. The Agreement has been successfully 
implemented in Nevada because the parties have been able to agree on 
reasonable tip rates. The industry and its employees are hopeful that 
similar success can be achieved in New Jersey. However, the IRS should 
allow a full calendar year of operation under the new agreement--
particularly since it is being put into place in New Jersey for the 
first time ever--before attempting to evaluate the program's success or 
to invoke traditional audit tactics.
    As the IRS looks to expand this tip agreement approach to gaming 
markets in other parts of the country--and potentially to other 
industries--the success of such efforts will hinge upon a continuing 
recognition by the IRS that this is a voluntary program in which there 
must be a mutuality of benefit for the employer and the employee as 
well as the IRS, requiring an administratively workable agreement that 
utilizes reasonable tip rates.
    Thank you for the opportunity to present these views on behalf of 
the American Gaming Association.

                                 <F-dash>

    Chairman HOUGHTON. Thank you, Mr. Jablonski. Mr. Zona?

STATEMENT OF FRANK ZONA, GOVERNMENT AFFAIRS CO-CHAIR, THE SALON 
  ASSOCIATION, AND OWNER, ZONA SALONS, NORWELL, MASSACHUSETTS

    Mr. ZONA. Thank you, Mr. Chairman, for holding this 
hearing. Thank you to Congresswoman Johnson and to all of you 
for introducing H.R. 2133. That is something that is very 
important to us. My name is Frank Zona. I own a salon in 
suburban Boston. I have 18 employees there, and I personally 
deal with tip income, so I will come at it from a point of view 
of being a voluntary government Affairs Chair for TSA, but also 
as someone who is living the issue. A lot of the things I hear 
on the panel are things that ring true to me.
    The salon industry, when we talked about the idea of 
creating a supportive environment to help compliance increase 
and to help business and so forth, and I think it is important 
to know what the salon industry is first. It is not just 
hairdressing, although that is a big part of it. You might want 
to think about it in terms of personal services. It is a big 
industry, multi-billion, a lot of people working in it, a lot 
of businesses working in it, so think of day spas and hair 
salons and barber shops and people doing skin care and it is 
growing. The personal service area is growing. We are still 
kind of an emerging industry if you look at it that way. It is 
becoming a little bit more formal, but it is still a lot of 
mom-and-pop. There is still a lot of confusion out there on 
issues such as tip income. We try to do our job as an 
association to educate, work with the IRS in a cosmetology 
TRAC, and so forth. I will come at it that way to try to bring 
you both perspectives.
    Congresswoman Johnson's bill came about because there were 
salon owners in Connecticut who were struggling with the issue 
of tips and contacted her. We were just beginning to hear about 
it around the country, and her office contacted us and said, is 
this a wider problem and is there maybe some legislative 
solution? That is how we came at that. I would say it is about 
5 years now dealing with the issue of tip income for us, so it 
is new to our industry relative to the others. The big 
difference is this: we have a split in the industry of 
employment where the people who work for us are W-2 employees, 
but many salons work as self-employment. If you think of this 
group of chairs here as a salon, if you are cutting hair, I 
might employ you and W-2. That is how I work. I also have the 
choice of just saying you can just rent that chair, give me 
$200 a week for renting the chair, and we have no employment. 
That is really the core of our problem with the whole issue of 
tip-reporting because I am under pressure to get my employees 
to report their tips. If they do not like it, they can very 
easily move. In the gaming industry, it is really hard to carry 
a roulette table down the street and plug it in somewhere else. 
It is hard in the restaurant industry to open a basement cafe. 
In our industry, if you have an employee who does not want to 
report their tips, or maybe does not even believe that tips are 
income--and that is something that truly, if you lined up 100 
employees in our industry and said, ``Are tips income?'' most 
of them would say, ``No, those are mine, those are a gift.'' 
So, we are still struggling at that real fundamental level.
    The idea of creating the environment, we need to make sure 
that we do not see real significant labor shifts where people 
can, if they are going to report in one place, then they can 
just slide away and go somewhere else. That goes to the core of 
H.R. 2133, which what it would do is, on the one hand, provide 
the relief to the employer in the industry, extend the 45(b) 
tax credit that the restaurant industry has, and that is 
important because the costs of complying are significant. In 
addition to those costs, incidentally, something that jumped 
into my mind is credit cards. Credit card companies now in many 
cases, if you take tips on credit cards, charge an additional 
fee for it. I would say the employer cost is more than 7.65 
percent. It might more approach 10 percent, what we hear from 
our members, administration costs and just tracking those tips, 
and so forth. Again, it is that alienation from your employees 
that you get that is the bigger issue. House Resolution 2133 
would extend that 45(b), provide us some financial relief in 
that sense.
    It would also introduce a little information reporting on 
that other half of our industry, and it is about a half-and-
half split with the self-employment and it would basically 
systemize that. If I am a salon owner who employs you folks, 
then I issue you a W-2 every year. If it is the other way 
around and I rent you those chairs, now I would issue you a 
1099 with instructions on how to report your tips as a self-
employed individual. It is not an absolute cure-all, but we 
think it is really reasonable, healthy legislation that would 
provide the kind of support in the industry to create that 
environment that we think will help tip compliance improve all 
around. The IRS has a good working relationship with them. We 
do owe them some thanks, I think, because hair color is a big 
part of our industry, and I do not think there is a Federal 
agency who has done more for the development of white hair than 
the IRS, and we very much appreciate that. Thank you for the 
hearing.
    [The prepared statement of Mr. Zona follows:]

    Statement of Frank Zona, Government Affairs Co-Chair, The Salon 
      Association, and Owner, Zona Salons, Norwell, Massachusetts

    Chairman Houghton and Members of the Committee, thank you for the 
opportunity to testify before you on behalf of The Salon Association 
(TSA).
    My name is Frank Zona and I am a third generation salon owner from 
Norwell, Massachusetts where I employ 18 people. I currently sit as Co-
Chairman of Government Affairs for The Salon Association. Primarily, we 
represent the small businesses of the salon industry, which is the 
great majority of the industry. In fact, 84 percent of salon 
establishments (with payroll employees) have fewer than 10 employees. 
It is also important to note that over 80% of salons and spas are owned 
and staffed by women. In 2002, the salon industry posted sales of $26.4 
billion, with more than 750,000 employees industry-wide. There are far 
many more that work in the industry, but they do so in self-employment 
rather than employment-based situations; a fact that is central to our 
problem.
    We support Representative Johnson's bill, H.R. 2133, The 
Cosmetology Tax Fairness and Compliance Act. This bill extends existing 
law to permit salon employers to claim the 45(b) tip tax credit that's 
currently available only to restaurant employers with tipped employees. 
The legislation also provides needed assistance to the federal 
government by improving tip reporting in all sectors of the industry. 
The legislation came about because salon owners from Connecticut 
contacted Representative Johnson about the problems associated with tip 
reporting, and her staff contacted TSA in an effort to see if the 
problem was widespread and if we would support a legislative solution. 
The answer to both questions was yes and we are thankful for her 
initiative. We are currently working with the International Chain Salon 
Association in supporting her bill on a national level.
    The expanded credit is a matter of simple fairness and common 
sense. Like the restaurant industry, salon owners must collect and 
report tip information from its employees to the Internal Revenue 
Service (IRS), and pay FICA taxes on the reported tips. However, unlike 
the restaurant industry, salons cannot claim the tax credit for FICA 
taxes paid on tips. Given that our average wage is over $11.00 per hour 
before tips, it stands to reason that we deserve equal treatment.
    The credit also serves as an offset to the significant costs 
related to complying with tip tax laws. We must educate employees about 
tip reporting laws, pursuade our employees to comply, keep records of 
reported tips, and report the income to the Internal Revenue Service. 
Credit card companies are in many cases charging extra fees for tip 
transactions. Therefore, although the salon employer is already paying 
over $11 per hour, he or she is facing a matching FICA liability equal 
to 7.65% of tips earned and the additional administrative costs. The 
actual full cost is closer to 10%. The extension of the 45(b) tax 
credit to salon owners will bring needed tax relief to help offset the 
costs of complying.
    But the greatest compliance cost of all is being put in an 
adversarial position with your employees in an industry where 
employment isn't the only way to receive income. Worker classification 
is the issue that separates salons from other tipped industries. Unlike 
most tipped industries, a significant segment of the salon industry is 
classified as self-employed. While two salons may look the same, one 
may classify the people behind the chairs as employees while the other 
may classify its workers as self-employed (or independent contractors). 
The focus on tips in employment situations is encouraging employees to 
leave employment for self-employment, and leads employers to reclassify 
their workers as self-employed. Submitted with this testimony is one 
example of a solicitation from a salon offering a ``tax saving'' chair 
rental opportunity (Attachment 1). The bottom line is that the tip-
reporting burden is greatest on employers and compliance efforts need 
to be approached with these dynamics in mind.
    If the IRS does not pay equal attention to both aspects of the 
salon industry, it will damage employment in the industry. If casino 
employees are getting pressured by their employer to report all of 
their tips, they cannot unplug their roulette tables and set up down 
the street. A waitress cannot just take her tables and open a basement 
cafe. But a hairdresser or massage therapist can easily find a less 
formal ``self-employment'' situation. Submitted with this testimony is 
an overview of the salon industry that indicates the size of the non-
employed sector (Attachment 2). Self-employment is significant and 
growing. And leads to this point: Where employees do not want to comply 
with regulations, they can easily leave and rent a chair where there is 
no employer to withhold from them. The compliance portion of the 
legislation adds simple information reporting to salons that classify 
their workers as self-employed.
    While it is possible that some individuals working in such a manner 
report all of their tips and income as self-employment income, it is 
well documented that the lack of third party reporting and withholding 
reduces compliance. There is no question that the greatest source of 
compliance is a paycheck subject to withholding. So what's at risk here 
for salons is not only the reporting of tips, but the loss of 
employees. What's at risk for the Treasury is not just the reporting of 
tips, but the reporting of income altogether.
    These are not just statistics for me. I have lost 5 employees in 
the last 18 months who are now renting chairs in other local salons. 
Our insistence on complying with tip laws was a major factor in these 
employees' decisions to leave, and in their conversations with one 
another. It will continue to be a factor. And I can say that because I 
am present during the conversations where an employee claims that tips 
are not income but a gift, or that their accountant is taking care of 
it and it's not my business, or that they can just go rent a chair. Put 
yourselves in my shoes for a moment. You are competing with salons that 
are willing to pay under the table; willing to classify the people they 
work with every day as independent contractors; willing to turn their 
heads on tip reporting. So while you are responsible and concerned 
about paying your share of FICA on tips, you find yourself with 
problems that are more pressing than a potential audit--the loss of 
your people and the tax advantage of illegitimate competition. Doing 
the right thing should not put people at a disadvantage to those who do 
not.

Here are our suggestions:
  1. Congress needs to pass H.R. 2133.
    The provisions of H.R. 2133 are reasonable, have been scored 
favorably by the joint committee, have received the cosponsorship of 42 
members of Congress, and have been worked on diligently for 4 years. It 
is the extension of existing law to an industry at a pivotal time when 
long-term overall compliance could go in either direction.
  2. The IRS needs to provide more information to the industry.
    Since trade associations play a critical role in disseminating 
information to the industry, it is critical to have statistical facts 
about IRS activities. Though the IRS has made significant efforts in 
outreach, TSA has experienced numerous IRS organizational changes that 
still leave us without consistent relationships and without critical 
information. Only in February 2004 did we learn that 1000 TRAC 
agreements had been signed. We know the IRS is working with the state 
boards, but we are not included in that dialogue. We are not provided 
any statistical information about the number of enforcement actions 
that are taking place in the non-employment sector. This is important 
information for the industry so that we can inform and advocate 
appropriately and effectively.
  3. The IRS needs to systemize contacts with the self-employed.
    It is the IRS's contact with the employers in the industry that has 
increased compliance in that segment. There is not an equal level of 
contact with the self-employed.
    Salon owners and industry stakeholders from around the country tell 
us that while they increasingly hear about employer contacts and 
audits, they never hear about self-employment contacts or audits. TSA 
has not received any information from within the industry of any 
enforcement activity in the self-employed segment. We lack confidence 
that the IRS has a clear strategy to achieve equal treatment of both 
segments of the industry.
    The compliance provision of H.R. 2133 would systemize taxpayer 
contacts by requiring that the correct form be issued to self-employed 
workers by the establishment. In a simple way, this third party action 
provides a point of contact for the IRS.
    Additionally, the TRAC agreement should be modified to expand the 
role of the IRS in contacting departed employees. Existing TRAC 
language places a clear requirement for employers to notify the IRS of 
the departed employee and for the employer to provide departed 
employees with tax forms within 14 days of departure. The IRS should be 
required to follow this employer action with a contact.
  4. EmTRAC should be offered to the salon industry.
    Salons and spas each have their unique circumstances. EmTRAC allows 
employers who work with the IRS to develop a customized agreement to 
get the same protections the TRAC provides--i.e., protection from 
employer-first audits; but with a little more flexibility to develop 
tip-reporting procedures that better suit their needs. And while the 
IRS must approve an EmTRAC, it doesn't require an employer to enter 
into a formal written contract with the IRS.
  5. The IRS needs to connect the license with the tax filer.
    The most universal arm of government in the salon industry is the 
state board. It's the one place where everyone in the industry meets. 
Every individual needs a professional license before they begin 
practicing. Every salon needs a facility license before they can open. 
Licenses need to be classified according to taxpayer type. This would 
provide a cross-reference link for both the individual and the 
business.
  6. The IRS needs to develop industry specific guidelines for worker 
        classification.
    The IRS should work with the industry to develop industry specific 
guidelines on worker classification. During a time of increased 
compliance activity on tips, the risk of worker misclassification 
becomes greater. No one wants to see a salon or spa flip its 
classification from employment to self-employment to avoid tax 
liability. We need industry specific classification criteria to reduce 
misclassification and increase compliance.
    I thank you for this opportunity to share some ideas, and I'll 
leave you with these thoughts:
    At the bottom of this problem are people who have no intention of 
complying; in the middle are people who want to do things right, but 
need a supportive environment; and then there are leaders. It is 
damaging to the industry and the IRS's long-term compliance efforts to 
work from the most compliant to the least compliant. Employers and 
their employees are the most compliant. Tax code and tax policy should 
reflect this in the ways indicated.
    I look forward to working together toward a long-term solution and 
I welcome your questions and comments.
    Thank you.
                               __________

                     Salon Industry Facts July 2004

The Salon-Industry is a Collection of Small Businesses

    <bullet>  There are more than 655,000 Salon-Industry establishments 
in the United States, with annual sales of more than $26 billion. The 
Salon-Industry is primarily comprised of single-unit operations, with 
98 percent of Salon-Industry firms having only one establishment.
    <bullet>  A large proportion of Salon-Industry establishments are 
small businesses, in terms of their annual sales volume. Fifty-one 
percent of Salon-Industry establishments (with payroll employees) have 
annual sales of less than $100,000, while 84 percent of establishments 
have annual sales of less than $250,000.
    <bullet>  The majority of Salon-Industry establishments are small 
businesses, as defined by the number of individuals that they employ. 
Eighty-four percent of Salon-Industry establishments have fewer than 10 
employees.
    <bullet>  Eighty-seven percent of Salon-Industry establishments are 
non-employers, meaning they have no payroll employees. With the 
exception of unpaid family workers, individuals who work at non-
employer establishments are classified as self-employed.

             Distribution of Salon-Industry Establishments

                     Employers versus Non-employers

[GRAPHIC] [TIFF OMITTED] T9685A.001

               Source: U.S. Census Bureau; 2001-2002 data

The Salon-Industry Employs a Large and Diverse Workforce

    <bullet>  The Salon-Industry employs more than 754,000 individuals 
in the United States.
    <bullet>  Eighty-four percent of Salon-Industry employees are 
women, compared to 47 percent of employees in the overall U.S. 
workforce.
    <bullet>  A diverse workforce is a hallmark of the Salon-Industry. 
Fourteen percent of Salon-Industry employees are African American, 
compared to a national average of 11 percent.
    <bullet>  Eleven percent of Salon-Industry employees are Asian, 
compared to just four percent of the overall U.S. workforce.
    <bullet>  Eleven percent of Salon-Industry employees are of 
Hispanic origin, slightly below the national average of 13 percent.
    <bullet>  The Salon-Industry is expected to continue to grow and 
provide employment opportunities well into the future. By 2012, the 
Salon-Industry is projected to provide employment for more than 865,000 
individuals, an increase of 111,000 jobs (or 14.7 percent) above its 
2002 level, according to projections by the Bureau of Labor Statistics.
    <bullet>  Forty-six percent of all individuals in the Salon-
Industry are self-employed, according to the Bureau of Labor 
Statistics.

                Distribution of Salon-Industry Employees

                 Payroll Employees versus Self-Employed

[GRAPHIC] [TIFF OMITTED] T9685A.002

Source: U.S. Department of Labor, Bureau of Labor Statistics; 2002 data

Average Hourly Earnings of Salon-Industry Employees

    <bullet>  Non-supervisory employees in the Salon-Industry earned an 
average of $11.75 per hour in 2003, excluding tips. In comparison, non-
supervisory employees in the overall private sector earned an average 
of $15.35 per hour in 2003.
    <bullet>  Since 1990, average hourly earnings of Salon-Industry 
employees have risen steadily. The average of $11.75 per hour earned by 
non-supervisory employees in the Salon-Industry in 2003 represented a 
strong 67 percent increase above the $7.03 earned in 1990. In 
comparison, the average hourly earnings of non-supervisory employees in 
the overall private sector increased at a lower 51 percent rate between 
1990 and 2003.

 Average Hourly Earnings (Excluding Tips) of Non-Supervisory Employees

              Barber Shops, Beauty Salons, and Nail Salons

[GRAPHIC] [TIFF OMITTED] T9685A.003

      Source: U.S. Department of Labor, Bureau of Labor Statistics

    Note: Figures include only establishments with payroll employees

                                 <F-dash>

    Chairman HOUGHTON. Careful on that.
    [Laughter.]
    Thank you very much. I would like to ask just a couple of 
questions, and, by the way, thank you very much, and then I 
will pass it along to Earl and then anybody else who wants to 
ask questions. I do not quite understand how the TRAC system 
can work for the little guy as well as the big guy. I 
understand the philosophy behind the program, and I understand 
how it works. Maybe you could help me on this, Mr. Rosic.
    Mr. ROSIC. Certainly. The requirements of TRAC are very 
costly and require a substantial commitment, no matter what the 
size of the employer. Certainly we see that a small operation 
may find different challenges to overcome in some respects than 
a large chain. However, remember, even if there are, say, 900 
food and beverage outlets throughout the country, each one of 
those is itself a small operation. The implementation of TRAC 
on the ground is going to be as difficult for a large chain as 
it is for a small operation. However, it may be that large 
employers are able to dedicate subject matter experts to 
establishing the right procedures and monitoring them than 
would be possible for a smaller operation.
    Chairman HOUGHTON. If you run a small restaurant with four 
or five employees, and you are keeping the books, cash 
register, and everything else, is the TRAC possible under that?
    Mr. ROSIC. Well, I guess providing training and education 
materials is as hard if you have 5 employees as if you have 500 
employees. The devotion of resources to that effort is 
disproportionate for a small operation as you describe. The 
recordkeeping is probably similar, although a large employer is 
going to be able to invest in systems that make it more 
automated.
    Chairman HOUGHTON. Well, I would like to ask another 
question, and anybody can answer this. You are really talking 
about those programs from the standpoint of the ownership, of 
the management. Other than wishing reporting programs would go 
away, what would your employees say if they knew there had to 
be some sort of a structure, regulation, and discipline? How 
would they organize these programs? What would they suggest to 
this panel if they were sitting in your place?
    Mr. TINSLEY. Mr. Chairman, I think that is one of the 
challenges that I tried to allude to earlier. We are an 
industry of 12 million people, and we have so many people 
joining our workforce for the very first time in their careers. 
We are talking about some of the very basic educational 
commitments. There are so many challenges that small business 
operators face that it is hard to sum up what I would call 
priorities on how you address these. Employees, I think first 
of all, would want to see something that was to their benefit 
of why it was beneficial, and that starts with education. That 
is one of the things that we have seen in our industry, that if 
you can sit down and explain to them the benefits to their 
Social Security fund, to the fact that on their W-2 they are 
going to have higher reported income that they can go buy a 
house, buy a washer and dryer, do those things that are very 
basic when they are young that they need credit for, or buy a 
car. What I have seen is where you can have the time to do 
that, it is successful and you put some monetary incentives 
behind it. The challenges are, when you are in our industry, is 
the turnover and the passing through aspect of it. It makes it 
a challenge. You see a lot of new faces that you are having to 
educate daily. It is a huge challenge.
    Chairman HOUGHTON. I understand the importance of education 
and understanding how this fits into the overall scheme of 
things and the whole concept of taxation versus gifts. At the 
end of the day, what would the employee like to see? Does he 
want to see a straight rate recognizing that compliance is 
necessary?
    Ms. POWER. If I may, Mr. Chairman, I think that the 
employee would want to have the flexibility to report exactly 
what he does earn. I think that the employee would be able to 
tell you many, many reasons for why the perceived rate, the 
charge tip rate is not the rate that he walked away with when 
he left the establishment at the end of the day. I do not think 
the employee would want to see a flat rate because I think that 
employees make tips at different levels, varying levels, and 
they tip out at different levels. I think that the employee 
would want to see a system that has the flexibility for them to 
report what they earn and no more, and for employees who 
receive less to not be penalized by reporting more than they 
earn.
    Chairman HOUGHTON. If there is flexibility, no rules, under 
an honor system, and employees have to report tips, factor that 
into their income, and employee B does not do this at all, and 
that is just the way it goes. Is that right?
    Ms. POWER. Well, there are significant rules in place to 
overcome that. The IRS has regulations that require employees 
to keep records of the tips that they receive. They are very, 
very detailed recordkeeping requirements. If it appears that an 
employee has not reported what he owed, then he is subject to 
proving that he received less than that.
    Chairman HOUGHTON. Does anybody else have any other 
thoughts on this? How about a representative from the salon 
industry?
    Mr. ZONA. Specific to our industry, one of the things that 
comes into mind--and, again, it goes to that dual way of 
working--is that I think employees feel good about being able 
to voluntarily report what they earn. That system works. They 
are very aware of, is the person next to them reporting, and 
next to them not just in the sense literally in that salon but 
throughout the industry. I think that the sense that, you know, 
I will pay, is everyone else paying, goes to our industry 
specifically.
    Chairman HOUGHTON. So, if everybody else does not pay, then 
you want a different system. Is that right?
    Mr. ZONA. Well, in our industry, if we have a salon down 
the street--and I have lost five people to tip income, 18 
months, roughly, and we required tip-reporting. We have our own 
system. We are not under TRAC. They have got opportunities, you 
know, to just, again, go rent a chair. If they think that the 
rest of the industry is not reporting and they are somehow 
foolish for being part of a small business that counts, I think 
that becomes an issue. That would they want? I think they are 
okay with it, but I think they look around and it matters to 
them that there is an evenness to the whole thing.
    Chairman HOUGHTON. Thank you very much. Mr. Pomeroy?
    Mr. POMEROY. I have enjoyed the panel presentations very 
much. Thank you for excellent testimony and bringing your 
perspective to the Committee. For me, this is a new issue of 
inquiry, and so I do not know anything about all this. Help me 
along the learning curve, if you would. Starting with Ms. 
Power, it seems to me that this potential of aggregate 
liability is a significant incentive to employers to really 
engage with the IRS and work this seriously. Is it more or less 
the driver in terms of eliciting private-sector cooperation? Or 
is it a significant enforcement issue with repeated IRS 
activity in terms of bringing actions against the employers on 
this aggregate issue?
    Ms. POWER. Well, I think that the figures bear out that the 
aggregate assessment was not essential to a significant, a 
very, very dramatic, a doubling of the amount of tip-reporting 
over the last--I think it was 8 years or so, because during 
that entire period, the IRS had a moratorium against employer-
only assessments. Notwithstanding the fact that--and it was 
publicly--you know, highly publicized. Notwithstanding that 
moratorium, there was a dramatic and significant increase in 
tip-reporting during that period in time. I also think that 
there are many other reasons why the employer would facilitate, 
encourage, and promote the full and accurate reporting.
    Mr. POMEROY. Absolutely. Absolutely. I am just trying to 
get a sense of the level of enforcement action we have on this 
aggregate business. Once the moratorium lapsed--and I know you 
are a lawyer, not a trade association. I am wondering if you 
have a sense in terms of what has been unleashed by the IRS in 
terms of actions under this aggregate.
    Ms. POWER. That would be over, I believe, the last couple 
of years since the Supreme Court held that they had the 
authority to do this. I think that there have been maybe about 
30, 40 audits on that basis since that period in time.
    Mr. POMEROY. It is my sense not a lot.
    Ms. POWER. No. That is correct, although that would be 
significantly more than the number of audits that they had in 
the early nineties when they started doing this. There were, I 
believe, less than that, maybe half that, in the early 
nineties.
    Mr. POMEROY. Right, which is probably why tip-reporting 
income was so low, perhaps. I mean, there might be some 
linkages there. Thirty actions across the United States of 
America over the last 2 years, this is a highly reserved 
enforcement potential action, but one that is hardly bedeviling 
main street businesses as they do their operations.
    Ms. POWER. Well, I think in large part, the reason why tip-
reporting was so low throughout the eighties and even into the 
early nineties was that the IRS did nothing to educate the 
restaurant community and the employees about tip-reporting at 
all. Congress passed the tip allocation provisions, the 8-
percent allocation rule, in 1982 and then the IRS did 
absolutely nothing with that for more than 10 years. Most 
employers thought and most employees thought and most IRS 
personnel thought that the only thing that employees had to 
report was 8 percent. It was news to a lot of companies that 
they were required to report any more. I think that the 
increase has come from employer education of employees and from 
IRS education. They have made significant strides.
    Mr. POMEROY. So, it does seem that there has been some 
significant achievement, both private and public, and a fairly 
good result there. Mr. Tinsley, I certainly appreciate your 
perspective as a restaurant owner, a restaurant chain owner, 
and then also on behalf of the association. In the end, you 
believe that if they are going to be trying to get down to 
finding how much tip income an individual has, it should be 
individually determined based on the employee. Is that correct?
    Mr. TINSLEY. That is correct.
    Mr. POMEROY. In principle, I understand that. Just as a 
matter of running a tax system, would that require individual 
employee audits to wrestle that down? Is that an impossible 
burden in terms of administering a nationwide tax system?
    Mr. TINSLEY. No, I do not see it at all as an impossible 
burden. In fact, I feel like it is the primary line or first 
point that any IRS agent should go to, is the taxpayer, and 
establish what is the liability of the taxpayer if they have a 
question. To me it goes in concern with every other business in 
the country. I do not know of any other business where the IRS 
can go to the employer, to audit them first, before they go to 
the employee.
    Mr. POMEROY. Well, though, there are some distinctions. I 
mean, basically tip revenue is in part direct compensation from 
the customer to the employee; whereas, in other businesses the 
employer provides 100 percent of the compensation. I think 
there is a pretty important difference. You are not taking a 
position of audit my employees?
    Mr. TINSLEY. No. What I am suggesting is that if there is a 
question on the liability, the first line of questioning or 
establishment of what the tax liability should be should be 
with the employee. I think that is even more important than the 
distinction that you just drew because the employer has very 
little to no control over what the tip amount is.
    Mr. POMEROY. It seems to me this Employer-designed TRAC 
(EmTRAC) is maybe a way to try and reach it--a way that has 
more or less a cooperative resolution.
    Mr. TINSLEY. Absolutely.
    Mr. POMEROY. How have you found your participation in it?
    Mr. TINSLEY. It is excellent because actually we do it all 
from a company perspective. What we do is, it is re-emphasis of 
what we are doing, it is education, it is repetition. It is 
every payroll the tip rates come out and show what the unit is 
doing as a whole. It is the camaraderie. I will re-emphasize 
what Tracy was just alluding to. To me it is an educational and 
a marketing obligation, and I think that is the approach that 
the IRS should take in concert with our industry. When you 
start talking about aggregate assessments, I think that is 
where you cross the bridge from creating a working positive 
relationship to a threatening relationship. That is where you 
start getting destruction in the progress. I think that is 
where we are headed, especially with a lot of companies that 
have encountered those kind of threats.
    Mr. POMEROY. It is kind of a carrot-and-stick deal, isn't 
it? On the carrot side, your participation in EmTRAC protects 
you from certain liabilities that the IRS will bring against 
you, and for that the IRS receives your significant efforts in 
trying to make this all work better. On the other hand, you 
know, sometimes carrots and sticks work better than just 
carrots. Do you know anyone that has ever had an enforcement 
action under aggregate?
    Mr. TINSLEY. Yes.
    Mr. POMEROY. Do you?
    Mr. TINSLEY. Yes, and I think the question becomes in the 
TRAC side--and I want to not paint the IRS as totally a bad 
organization, because it is not. I have had a great rapport 
with some individuals there. The challenge begins, Congressman, 
whenever you discuss these ideologies and the philosophies 
upstairs at 11th and Constitution, something is left between 
there and the field office in Albuquerque. We all face those 
challenges in our businesses, but I think the IRS may face even 
more of a substantial challenge. Not only their field people do 
not know and understand the TRAC or the EmTRAC, but they really 
do not have the same constructive--a lot of times--maybe a 
better way to say it is they have an inconsistent approach on 
that enforcement.
    Mr. POMEROY. They tend to be cops, not partners. I got it. 
Thank you very much for superb testimony.
    Chairman HOUGHTON. Mr. Herger?
    Mr. HERGER. Thank you very much, Mr. Chairman, and, again, 
I want to thank each of you for appearing here today. My 
background is from a small business, and I think about the 
reasons why I ran it for as many of the concerns I am hearing 
from you. Even though we have a well-meaning government, it is 
not always what government is doing for you but what they seem 
to be doing to you that concerns you. I think that is what our 
responsibility as elected officials is, to try to be that 
buffer between the two, attempt to make the system work as it 
should.
    I think, Mr. Tinsley, you probably mentioned some of the 
challenge we have. Once you get from the top here in 
Washington, to work its way down through--I am sure it is well-
meaning but, nonetheless, this great bureaucracy, to where you 
get where the rubber meets the road, so to speak, is where our 
problem seems to lie. I would like to ask each of you, if I 
could, to respond briefly to this question: do you think the 
aggregate estimation method is a fair way to determine 
unreported cash tips? If not, why?
    Mr. TINSLEY. I would be glad to address that, Congressman. 
Initially, absolutely not do I think it is fair. First of all, 
let's take the purpose of the Social Security or FICA tax is to 
be attributed directly to the employee for their retirement 
benefits. The aggregate assessment does not do that. It 
assesses the employer, and it is no way tracked back to the 
individual employee to attribute to their Social Security fund. 
That is one. The other thing is it is totally inaccurate in the 
fact that in aggregate assessments they take largely credit 
card tips, which are established at one rate, and assume that, 
one, no server has been stiffed, no walk-outs, no manager, no 
take-outs, no manager meals, no comps. They also assume that 
cash tips are going to be equivalent to credit card tips. That 
is just not the case. Those are two very important reasons why 
that does not work.
    Mr. HERGER. Maybe the rest of our restaurant people, and 
then I have maybe a follow-up for you, Ms. Power. Mr. Rosic?
    Mr. ROSIC. Thank you. I agree with Mr. Tinsley. I would add 
that it unduly shifts the burden of proof to the employer in 
any attempt to defend against an aggregate estimation method 
assessment rather than focusing on the taxpayer at issue, which 
is the employee. Everybody is potentially subject to audit, and 
the employer is not in this case failing to pay taxes that are 
shown to be due. It is the employee who has not reported the 
tips and the IRS has methods by which to get at that 
information, which is going to be more accurate if the 
recordkeeping has been done correctly by the taxpayer.
    Mr. HERGER. So, it might be one thing for an employer to 
educate and try to inform as much as you can these employees, 
many of which are maybe in their first jobs or whatever, but it 
is something else to hold them responsible for taxes that 
really are not theirs. Mr. Jablonski?
    Mr. JABLONSKI. Yes, I guess from a practical standpoint 
since we have sort of had to go through this whole process of 
negotiating actual tip rates with the IRS, from my perspective 
I would just like to echo that this is exactly what happens. 
What typically the IRS did--and I will speak to New Jersey 
because that was the last place we put one of these tip-
reporting agreements in place. The IRS sort of makes a first 
pass. They take our sales data and hours worked type data, and 
they come up with tip rates based on some formulas that they 
have developed and that have been developed through court cases 
and then they bring those to us, and they propose these initial 
tip rates, and they say, okay, well, we think your cocktail 
server should make X dollars per hour.
    Well, then, as employers, we go to the employees and the 
employees' management, and we say here is what the IRS 
proposed, now let's hear your side of the story. That is 
exactly where we get into things like stiff factors, and they 
talk about carry-outs or things that we are not even aware sort 
of in our ivory tower approach that, you know, the employees 
tell us about. Slowly but surely that tip rate gets whittled 
down to something more to the actual tip rate that is being 
earned. I would certainly say that, you know, this aggregate 
approach is the wrong way to go. The IRS really needs to go and 
look to the employees because, you know, they are the ones that 
are required to keep the tip records, and they know their 
story. They know the situation that is involved. I guess that 
is what I would have to offer on that?
    Mr. HERGER. Mr. Zona?
    Mr. ZONA. Too many variables, and it then does not go to 
the employees' individual funds. That does not feel right. Then 
it gets to a problem of educating, if you are educating people 
that you are supposed to report, and this is, you know, 
supposed to be how it goes, it does not feed that education 
process either. No, we are not in favor of the aggregate 
approach at all.
    Mr. HERGER. Do you think it is fair and equitable?
    Mr. ZONA. No.
    Mr. HERGER. Okay. Thank you. Maybe just a very quick 
follow-up. Ms. Power, I want to thank you for representing my 
good friend and constituent, Bob Larive, before the Supreme 
Court on this very issue. I would like to just hear your 
thoughts on what you believe is Congress's appropriate role in 
this matter given the Supreme Court's decision.
    Ms. POWER. Well, first off, to comment and add to the 
comments that were added here, the only thing that I would add 
in terms of the fairness or unfairness of the aggregate method 
is that the potential cost is financially devastating, and it 
grows and grows and grows each year. I think the Supreme Court 
decision said, well, you know, all the employer has to do is 
put aside some money in a reserve for that. At this point, it 
is absurd that it continues to grow and grow and grow and 
nobody should have to operate their business under that type of 
threat.
    As far as what I think Congress should do here, I really 
think that your bill is an excellent solution. I do not think 
that the aggregate estimate method is necessary. To respond to 
what the IRS' biggest complaint often is, it is that, well, 
otherwise, we would be forced to do employee audits. The 
restaurant industry provides the IRS more information than any 
other employer as to the earnings of their employees. Every 
single year on that Form 8027, the restaurateur identifies 
every single employee who receives less than 8 percent. The IRS 
can take that form, and if the IRS wants to, it can issue 
letters to those employees to collect the taxes on that amount. 
No long, timely audit is necessary to do that. The same 
information that the IRS uses to assess the employer, the IRS 
can turn around and do the same computation for individual 
employees.
    Mr. HERGER. Ms. Power, thank you very much. I notice my 
time is up, but thank you very much, and I want to thank each 
of you for participating. Hopefully we will try to bring this 
to a more equitable solution and outcome. Thank you. Mr. 
Chairman, thank you very much for your generosity in time.
    Chairman HOUGHTON. Thank you. I am trying to move this 
along, and we have a vote in about 10 minutes. If we could have 
the answers a little faster and a little briefer, I would 
appreciate it. Mr. Tanner? I said the answers.
    [Laughter.]
    Mr. TANNER. I will have to break a lifetime here of 
congressional rhetoric to be brief. I thank all of you for 
being here. I just have one short question. Some of you have 
indicated that the TRAC agreements work pretty well for you. I 
know we have figures on some salons have agreements and some do 
not. For any of you, is there an approach that Congress could 
take to either give more flexibility to the IRS or to do 
something to make these agreements more adaptable to the real-
world situation that you describe? It looks to me like one of 
our problems is holding one entity liable for another's 
actions. That is very unusual in our system for an employer to 
be held responsible for the underreporting of someone else, the 
employees. That is not usually the way we view the law in this 
country. Is there something that you would suggest that we 
could do in this regard? The bell is ringing. Thank you very 
much.
    Mr. TINSLEY. I do not think that giving the IRS more 
flexibility is the answer. I think holding the IRS to an 
accountability or a process is what is important due to the 
challenges that the IRS has from the ranks, from the 
Constitution down to the field offices, because we see a lot of 
inconsistent treatment. I believe there is only 18 percent of 
the restaurants that are subject to being eligible for TRAC are 
actually on TRAC. That tells me something is broken, and I 
think it has more to do with the education and understanding of 
how it all works and the fear or the threat factor than 
anything else.
    Mr. ZONA. For the salon industry, the flexibility for the 
employer would be important, so not necessarily more 
flexibility for the IRS but the EmTRAC being extended to the 
salon industry is, you know, very appealing. Each business is 
unique in that way, and what Ed is doing with his business is 
interesting.
    Mr. TANNER. Thank you. I guess I misspoke when I talked 
about flexibility. That was flexibility for both parties. When 
you say one, ordinarily you mean both. Thank you.
    Chairman HOUGHTON. Thank you very much. Mr. Ryan?
    Mr. RYAN. I will wait for the next panel.
    Chairman HOUGHTON. Okay that is fine. Mr. Sandlin?
    Mr. SANDLIN. Following your direction, Mr. Chairman, I will 
try to be brief. I think the questions are more accurately 
directed to the IRS. I would say I am in support of all the 
testimony given this morning by the witnesses we have had thus 
far, and I think it is important in many ways to note that I 
think we are missing the point. While there may be ways to 
negotiate reporting and tip rates and those sorts of things, I 
think it ignores the underlying problem. The employers and the 
employees are required under the law to report income--income 
that they actually earn and that they receive. I know there is 
a statute about the estimated income, and I am very familiar 
with all that. I have a problem with it when you are paying tax 
and the government is requiring employers and employees to 
report on estimates. I certainly would not want to be pooled--I 
would hate to be pooled with you, Mr. Chairman, and have to pay 
based on that. I just think that is wrong.
    The industry is not the secret police of the IRS, and I 
think if the IRS thinks there is a problem, then the IRS needs 
to take care of their business and they need to do it in a way 
that is consistent with the Constitution and with the Fifth 
amendment, and maybe they should get a good book on privacy and 
read that. If we are going to target the restaurant industry 
and the salon industry and the gambling industry, then we need 
to target the doctors and the lawyers and the bankers and the 
candlestick makers, just like us. I was looking yesterday at 
some of the issues on the IRS. The taxpayers overpay taxes by 
an estimated $1 billion a year because they fail to claim an 
itemized deduction. A quarter of the taxpayers who are eligible 
for the earned income tax credit (EITC) fail to claim it 
because it is too complicated. Small business overpaid their 
taxes by $18 billion in 2000 and 2001 because of return errors. 
Tens of thousands of farmers paid an average of $500 too much 
in tax because they failed to take care of income averaging.
    The Deputy Treasury Secretary told the Senate Finance 
Committee that the IRS walked away from more than 2 million 
delinquent tax accounts last year totaling $16.5 billion. The 
agency pursued just 18 percent of abusive tax shelters. Mr. 
Chairman, when the IRS takes care of those and when they go 
after those tax shelters and when they start going after the 
accounts that are delinquent, I think then we can look at the 
poor waiters and waitresses and salon owners and hairdressers, 
and we can look at trying to do something to collect their tax. 
Until such time as they take care of this stuff, I think it is 
absolutely ridiculous to go after single mothers with three 
children that are wait staff in a restaurant trying to pay 
their bills. I yield back the balance of my time.
    Chairman HOUGHTON. Does anybody have any comments on that?
    Mr. TINSLEY. Mr. Chairman, the only thing that I would like 
to add is on the question from the Congressman on the 
flexibility issue. A follow-up to that is I feel like the 
flexibility is so important in the restaurant industry from the 
owner-operator's side because of the variation in the types of 
businesses that we have. We know from geographic location to 
style of the restaurant, where there is casual dining, fine 
dining, we know what works best. We do need the flexibility to 
put our programs in, educate our employees.
    Mr. SANDLIN. I think it is great to educate your employees, 
and I understand flexibility. The real truth is the law 
requires you to pay tax on income, income received, and that is 
just the bottom line. If the IRS thinks there is a problem and 
people are not paying tax on their earned income, then the IRS 
can darn well find out how to do it. Putting restaurant owners 
and gambling operators and salons in the position of being 
their police and ratting out and reporting on their employees 
is just absolutely ridiculous. It is ridiculous, and we do not 
do it in any other industries. If they say, well, we do not 
have quite the problem in other industries, well, I do not know 
what to tell them about that. They are the experts in 
collecting tax and making people report. At the end of the day, 
you have to say everyone in America, no matter what your job 
is, is responsible for reporting his or her income accurately, 
period. That is the law, and if people are breaking the law, 
then we need to find some way to take care of it. It is not by 
putting an added expense and burden on the employers or making 
them be the secret police for the IRS.
    Chairman HOUGHTON. All right. Well, thank you very much. We 
certainly appreciate your wisdom and your thoughts. That is all 
for this panel, and when we come back, we are going to have 
three votes. Mr. Conlon, who is the Director of Reporting 
Compliance at the IRS, is going to be our next witness. Thank 
you very much.
    [Recess.]
    Well, ladies and gentlemen, if we could reconvene our 
Committee, we have had our three votes. I do not know when the 
next series will be, but we will go right ahead and I think we 
will be okay. I would like to introduce Mr. William Conlon, who 
is Director of Reporting Compliance at the IRS. Mr. Conlon, 
will you please start your testimony? We are delighted to have 
you here.

STATEMENT OF WILLIAM F. CONLON, DIRECTOR, REPORTING COMPLIANCE, 
                    INTERNAL REVENUE SERVICE

    Mr. CONLON. Mr. Chairman, Ranking Member Pomeroy, 
distinguished Members of the Subcommittee, I appreciate the 
opportunity to appear before you to discuss some of the key 
issues of IRS enforcement of the reporting of tip income. A 
more complete statement of my remarks has been provided in 
written form. The law requires all employees who receive tips 
to keep contemporaneous and accurate records of the tips 
received, to report the tips received to their employers in a 
written statement at least monthly, and to report those tips on 
their Federal income tax returns. As 1990, which is the latest 
tip study available, using 1984 data and the results of our 
compliance efforts, we estimated that restaurant employees were 
reporting less than 50 percent of their true tip income. This 
study showed that employees working at the then-existing 69,000 
restaurants were underreporting tips by over $2 billion.
    Chairman HOUGHTON. Could I interrupt a minute? I know this 
is unusual doing it, but what is the source of that 
information, estimating 50 percent.
    Mr. CONLON. Again, sir, that would be based on the taxpayer 
compliance measurement data that we had, plus our own 
experience. Clearly that is an estimate, but we felt that that 
was fairly objective. I would have to go back into the 
archives, but we could certainly do that to justify it.
    Chairman HOUGHTON. No, please proceed. I just did not know 
whether you had that on the tip of your tongue.
    Mr. CONLON. Again, the study did show a fair degree of 
noncompliance. There are now over 255,000 food and beverage 
establishments in existence employing over 12 million workers. 
In addition, there are many businesses where tipping is the 
norm, such as those involving gaming, taxi cabs, limousine 
services, golf clubs, cosmetology, and others. Along with the 
study, the IRS considered its examination programs which 
created burdens on the employers, the employees, and the cost 
of significant compliance resources by the IRS. Accordingly, 
the IRS began to explore new methods to achieve voluntary 
compliance. Those efforts resulted in the IRS tip compliance 
initiative. The initiative emphasizes voluntary agreements 
between establishments and the IRS regarding the reporting of 
tip income. While more detail is provided in my written 
comments, I would like to offer a few comments.
    Our initiative emphasizes education of employers as well as 
their employees, simplification of the reporting process, and 
reducing burden by minimizing the possibility of a tip 
examination. While the initiative applies to all industries 
where tipping is customary, differing products have been 
developed to address specific needs. The Tip Rate Determination 
Agreement applies to--or actually models examination procedures 
to determine tip rates to be reported based on past experience. 
A review of employer books and records is required. For TRAC 
agreements, while no specific tip rate is determined, the 
employer institutes its own program or actions to bring itself 
and its employees into compliance. A limited review of records 
is normally performed. For the EmTRAC agreements, the 
opportunity is provided an employer to have their currently 
existing procedures reviewed by the IRS and accepted as meeting 
the requirements of the TRAC process. Finally, the Gaming 
Industry Tip Compliance Agreement is very similar to the Tip 
Rate Determination Agreement, but modified to meet situations 
unique to the gaming industry.
    Tip income voluntarily reported from all industries on 
employment tax Forms 941 has increased from $8.5 billion in 
1994 to $18 billion in 2003. While a range of factors has 
contributed to this, I believe a significant portion of this 
increase reflects the presence of the IRS in the tipping 
industries, either through our education efforts, voluntary 
agreement programs, or enforcement activities. Within the 
tipping industries, there has been much discussion of the 
opinion of the Supreme Court which affirmed the ability of the 
IRS to use an aggregate estimation method for determining an 
employee's tip income and assessing the employer for its share 
of taxes due. Effective tax administration occasionally 
requires the IRS to use reasonable estimates when a precise 
determination is not practical. The Court's opinion confirmed 
the reasonable use of the authority granted to the IRS.
    We believe that employers decide to participate in a tip 
agreement primarily because of the authority granted to the IRS 
to take appropriate enforcement actions when needed and the 
audit protection these agreements provide. The IRS does not 
have the resources to individually audit the many thousands of 
tipped employees who may not report all of their tip income. We 
must take a balanced approach which fully leverages education 
front-end voluntary agreements as well as enforcement efforts. 
Collectively, this will achieve compliance in the most 
efficient manner. We recognize that consideration has been 
given to possibly restricting the enforcement authority 
currently available to the IRS. In keeping with my previous 
comments, I would urge the Committee to work with the Treasury 
Department regarding any changes to current law.
    We also understand consideration is being given to 
extending the application of the section 45B income tax credit. 
I would like to point out that a critical component of that 
credit for the IRS is the companion requirement to file a Form 
8027. The IRS uses this form to assess the accuracy of income 
reporting in those industries. Tax administration could be 
difficult or costly if additional applications of the credit 
did not also include a means for efficiently determining its 
accuracy. Mr. Chairman, thank you again for allowing me to 
testify. I would be happy to entertain any questions.
    [The prepared statement of Mr. Conlon follows:]

    Statement of William F. Conlon, Director, Reporting Compliance, 
                        Internal Revenue Service

    Good morning Mr. Chairman, Ranking Member Pomeroy, and 
distinguished Members of the Subcommittee. I appreciate the opportunity 
to appear before you this morning to discuss the issue of IRS 
enforcement of the reporting of tip income.
    Improving the compliance behavior among tipped employees continues 
to be a focus of IRS employment tax initiatives.
    The law requires all employees who receive tips (1) to keep 
contemporaneous and accurate records of the tips received, (2) to 
report the tips received to their employers in a written statement at 
least monthly, and (3) to report those tips on their federal income tax 
returns.
    Employers are required to withhold income tax, social security or 
railroad retirement tax, and Medicare tax on the tips employees report 
to them in a written statement. The Internal Revenue Code provides that 
the employer is responsible for deducting and depositing the employee's 
FICA and federal income tax on tips included in the written report 
furnished by the employee to the extent that collections can be made 
from the employee's wages (under the employer's control, excluding 
tips) on or after the time the written statement is furnished.
    Under section 3121(q) of the Code, tips received by an employee are 
remuneration for employment. The remuneration is deemed to be paid when 
the tips are reported to the employer by the employeepursuant to 
section 6053(a). If the employee failed to report tips, in determining 
the employer's FICA tax liability, the remuneration is deemed to be 
paid when notice and demand for the taxes is made to the employer by 
the Secretary.
    As of 1990 \1\ (latest tip study available), using 1984 data, we 
estimated that restaurant employees were reporting less than 50% of 
their true tip income. This study showed that employees working at the 
existing 69,000 restaurants were under-reporting tips by over $2 
billion. There are now over 255,000 food and beverage establishments in 
existence, employing over 12 million workers. In addition, there are 
many businesses where tipping is the norm, such as gaming 
establishments, taxi cabs, limousine services, golf clubs, cosmetology 
and barbering establishments, nail salons, health and beauty spas, tour 
guide establishments, cruise ships, and many more.
---------------------------------------------------------------------------
    \1\ Tip Income Study, IRS Research Division Publication 1530 (8-90)
---------------------------------------------------------------------------
    In the past, the IRS performed resource intensive examinations on 
the returns of tipped employees and determined that the vast majority 
of these employees were not properly reporting their tips. Significant 
tax assessments were being made against those employees being examined. 
The results of these examinations created significant financial burdens 
on the employees and the employer. They were also an inefficient 
approach to this compliance problem for the IRS. Accordingly, the IRS 
began to explore new methods to achieve voluntary compliance and, at 
the same time, reduce the burden for employees and employers. These 
efforts resulted in the IRS tip compliance initiative, the Tip Rate 
Determination and Education Program (the Tip Program).

Tip Rate Determination and Education Program (TRD/EP)

    The IRS initiated the Tip Program in 1993 to improve and ensure tax 
compliance by employers whose employees receive tip income. The program 
was originally offered to the food and beverage industry, and 
subsequently to the Cosmetology and Barber and gaming industries. In 
December, 2000, we further extended this program to all other 
industries where tipping is customary.
    The IRS initiated the Tip Program for various reasons, including:

    <bullet>  Education--To help tipped employees and their employers 
improve their understanding of the laws regarding the federal tax 
treatment of tips and enhance tax compliance through the use of advance 
voluntary compliance agreements,
    <bullet>  Simplification--To make it easier for tipped employees to 
calculate their tips, report their tips, and pay their taxes, and
    <bullet>  Burden Reduction--To reduce the likelihood of a tip 
examination and ease the financial burdens associated with a tip 
examination.

    The program offers employers options to help employees more 
accurately report their tip income. These options include:

    <bullet>  Tip Rate Determination Agreement (TRDA)
    <bullet>  Tip Reporting Alternative Commitment(TRAC)
    <bullet>  Employer Designed TRAC Agreement (EmTRAC)
    <bullet>  Gaming Industry Tip Compliance Agreement (GITCA)

    Other employers that can now participate in either a TRAC or TRDA 
include taxicab and limousine companies, airport skycap companies, car 
wash operations, tour guide companies, and many more.
    Taxpayers in the food and beverage industry expressed interest in 
designing their own TRAC program. Notice 2000-21, 2000-19 I.R.B. 967, 
set forth proposed requirements and procedures for obtaining approval 
of an employer-designed EmTRAC.
    The GITCA retains many of the features of the TRDA. However, since 
it is now offered through a revenue procedure, it now has the 
enforceability tool and safe harbor provisions that the industry 
requested.
    The Tip Program is totally voluntary. An employer can choose not to 
enter into the program but, instead, institute its own program or 
actions to bring itself and its employees into compliance.
TRDA (Tip Rate Determination Agreement)
    TRDA requires the business to work with the IRS to arrive at a tip 
rate for the various occupations within the restaurant.
    Participating employees report tips to their employer at or above 
the rate determined in the agreement. However, if the employee actually 
receives tips below the determined rate, the employee is then required 
to report only the actual tips received. If an employee fails to report 
at or above the determined rate, the employer will provide the IRS with 
that information and the IRS may audit that employee's tax return. 
Employers and employees then pay the appropriate taxes on this income, 
including social security and Medicare taxes (FICA) and income taxes. 
The following requirements apply to TRDAs:

    <bullet>  At least 75% of tipped employees must sign a 
participation agreement with the employer.
    <bullet>  The tip rates are determined using financial and 
operating information available to the employer, historical information 
provided by the IRS, and generally accepted accounting principles.
    <bullet>  The TRDA does not have any specific education requirement 
but IRS provides assistance to help employees understand their tax 
responsibilities and emphasizes benefits for complying.
    <bullet>  TRDA is available for all industries where tipping is 
customary. TRDA is available to those businesses that operate primarily 
with cash receipts.

TRAC (Tip Reporting Alternative Commitment)
    The food and beverage industry wanted to participate with the IRS 
to develop an alternative to TRDA to improve the compliance of their 
tipped employees. A coalition of both large and small food and beverage 
industry representatives worked together with the IRS to create the 
TRAC agreement.
    TRAC requires employers to:

    <bullet>  Establish a reasonable procedure for accurate tip 
reporting by all tipped employees,
    <bullet>  Institute a training program to educate employees of 
their tax reporting obligations as they relate to tips, and
    <bullet>  Comply with all federal tax requirements regarding the 
filing of returns, paying and making tax deposits, and maintaining 
required records.

    TRAC was originally offered only to the food and beverage industry 
but has now been extended to all industries where tipping is customary. 
A specific TRAC agreement is available for the Cosmetology and 
Barbering Industry. This agreement has characteristics unique to this 
industry.
    The IRS will only terminate a TRAC agreement if the employer fails 
to meet one of the three commitments noted above.
EmTRAC (Employer Designed TRAC agreement)
    The EmTRAC retains many of the provisions of the TRAC agreement. 
Employers commit to:

    <bullet>  Establish a reasonable procedure for accurate tip 
reporting by all tipped employees,
    <bullet>  Institute a training program to educate employees of 
their tax reporting obligations as they relate to tips, and
    <bullet>  Comply with all federal tax requirements regarding the 
filing of returns, paying and making tax deposits, and maintaining 
required records.

    The EmTRAC program provides an employer with considerable latitude 
in designing its educational program and tip reporting procedures. 
Restaurant and bar owners must apply to have the IRS approve their 
program. Once approved, these employers will receive the same benefits 
and protections as afforded under the IRS administered TRAC agreement. 
The IRS has approved all seven EmTRAC applications received.

Gaming Industry Tip Compliance Agreement

    The new Gaming Industry Tip Compliance Agreement (GITCA), while 
still voluntary, is offered through Revenue Procedure 2003-35. The 
agreement allows a gaming industry employer, its employees, and the IRS 
to work together to determine tip rates for specified occupational 
categories. The agreement prescribes a threshold level of participation 
by the employer's employees, and reduces the compliance burden for the 
employer and enforcement burdens for the IRS.
    The Gaming agreement was originally offered through a Gaming TRDA. 
The new agreement, offered through Revenue Procedure 2003-35, was 
created in direct response to concerns raised by representatives from 
the Gaming Industry. As a result of these concerns, the IRS in joint 
cooperation with representatives from this industry, created the new 
agreement.

Indian Tribal Gaming

    The Office of Indian Tribal Governments, under the Tax Exempt and 
Governmental Entities Operating Division (TEGE), serves as the 
coordinating office for all federal tax administration needs with 
Indian tribal governments, which includes tax administration in 
connection with Indian tribal gaming.
    There are 566 federally recognized tribes across the country. There 
are 310 gaming facilities within these tribal units, approximately 65% 
of which have occupations where significant tipping occurs. The 
remaining 35% consist principally of bingo or video lottery terminals, 
and do not lend themselves to having tipped employees.
    Between entities where agreements are in place, and entities where 
compliance actions are currently underway, tip reporting compliance is 
being addressed with nearly 90% of the applicable customer base. We 
expect to reach 100% within the next 12-18 months, and will then focus 
primarily on maintaining compliance in the tip reporting area.

Level of Compliance

    Various indicators show that voluntary compliance has significantly 
increased in industries where a tip agreement has been implemented.
    IRS has secured 15,759 tip agreements that cover 46,596 
establishments, as follows: (Indian Tribal agreements discussed 
earlier)

    <bullet>  1,176 Restaurant TRDA agreements, covering 1,440 
establishments \2\
---------------------------------------------------------------------------
    \2\ A Restaurant TRDA is generally with a single-property Employer.
---------------------------------------------------------------------------
    <bullet>  12,871 Restaurant TRACs, covering 37,788 establishments.
    <bullet>  2 Cosmetology TRDA agreements, covering 2 establishments
    <bullet>  1,388 Cosmetology TRAC agreements, covering 5,470 
establishments
    <bullet>  322 gaming tip agreements, representing 1,896 
establishments.
    <bullet>  12 TRAC agreements with a transportation employer that 
represents 12 establishments.

    Since the Tip Program was introduced, tip wage reporting from all 
industries on Forms 941 Employer's Quarterly Federal Tax Return has 
increased substantially. In 1995, tip wages voluntarily reported from 
all industries were $9.45 billion. They exceeded $18 billion for 2003.

Correspondence Examinations

    To make this program successful, it must be balanced with 
enforcement activity. Industry representatives have voiced approval of 
the Tip Program but stated that the IRS needs to focus enforcement 
efforts more on the tipped employee and not solely on the employer.\3\
---------------------------------------------------------------------------
    \3\ Comments received during Restaurant and Bar Industry Meeting 
held April 2, 2003 at the Treasury Executive Institute in Washington, 
DC.
---------------------------------------------------------------------------
    The IRS does perform examinations of those employees who do not 
agree to become participating employees and report their tips at or 
above the established tip rate.
    The Wage and Investment (W&I) Campus in Fresno processes the Form 
1040 examinations for employees identified to have unreported tip 
income. Over 5,000 tipped employees' returns were examined this year.

Section 3414 of the IRS Restructuring and Reform Act of 1998

    Section 3414 of the Internal Revenue Service (IRS) Restructuring 
and Reform Act of 1998, prohibits the threat of an audit to coerce 
taxpayers into signing a Tip Reporting Alternative Commitment (TRAC) 
Agreement.
    Section 4.23.7.4 of the Internal Revenue Manual (IRM) outlines 
procedures for soliciting tip agreements. The IRM prohibits the use of, 
or implication of, a threat of an audit to secure participation in any 
voluntary tip agreement. Examiners must provide the necessary 
educational material to any employer seeking information on the Tip 
Program whether or not a tip agreement is secured.
    To avoid any implication of a threat of audit, the IRM requires an 
interval of at least six months between the last contact to solicit a 
tip agreement and when an examination letter is sent to the taxpayer. 
The six-month policy applies only to tip examinations and not to 
general income tax examinations that may warrant an audit under normal 
examination procedures.
United States vs. Fior d'Italia, Inc.
    On June 17, 2002, the Supreme Court rendered a decision in favor of 
the Internal Revenue Service, in the case of United States v. Fior 
d'Italia.\4\ The Supreme Court affirmed that the IRS has the authority 
to assess an employer's share of FICA taxes due on employees' tip 
income using an aggregate estimation method.
---------------------------------------------------------------------------
    \4\ U.S. v. Fior D'Italia, Inc., 536 U.S. 238 (2002)
---------------------------------------------------------------------------
    In essence, the Supreme Court case reaffirmed IRS authority to 
assess employer FICA taxes on unreported tip income without having to 
audit individual employees. Employer-only FICA tax assessments are 
implemented only where other methods would not be appropriate.
    Participation in a tip agreement is motivated primarily because of 
the audit protection these agreements provide and the employer-only 
authority that the Supreme Court case grants the IRS. Simply stated, 
the IRS does not have the resources to audit the thousands of tipped 
employees that do not report all their tip income. Reversal of the Fior 
d'Italia case would require the IRS to do tens of thousands of 
individual examinations in order to maintain the current compliance 
levels.
    The following shows our audit activity for the past three years:

------------------------------------------------------------------------
                                                                FY 04
                         FY 01        FY 02        FY 03     (Estimated)
------------------------------------------------------------------------
Employer Audits            239          126          113          228
------------------------------------------------------------------------
Employee Audits           2553         1746         1420         5262
------------------------------------------------------------------------


Section 45B Credit 

    Certain food or beverage establishments may claim an income tax 
credit under Section 45B of the Code for social security and Medicare 
taxes paid or incurred by them on a portion of their employees' tips. 
The credit is available for establishments whose employees received 
tips from customers for providing, delivering, or serving food or 
beverages for consumption if tipping was customary. The credit applies 
only to tips received by food and beverage employees.
    Employers use Form 8846, Credit for Employer Social Security and 
Medicare Taxes Paid on Certain Employee Tips, to claim the credit. The 
credit is available without regard to whether the tips were reported to 
the employer pursuant to IRC 6053(a). Thus, it is available for 
employer FICA tax paid pursuant to an IRC 3121(q) assessment.
    The credit applies to employer FICA tax on tips received in excess 
of the tips ``deemed paid'' by the employer for purposes of satisfying 
the minimum wage provisions of the Fair Labor Standards Act (FLSA).
    The credit is part of the general business tax credit. Because it 
is an income tax credit, claimed on the income tax return, it may be 
used to offset any income tax liability, but not employment tax 
liabilities. The income tax deduction for FICA taxes must be reduced by 
the amount of this credit.
    Form 8027 Employer's Annual Information Return of Tip Income and 
Allocated Tips is an information return that employers who operate a 
large food or beverage establishment must file with the IRS. There are 
certain criteria for filing this return, as explained below:

    <bullet>  Food and beverage is provided for consumption on the 
premises;
    <bullet>  Tipping is a customary practice; and
    <bullet>  More than 10 employees, who work more than 80 hours, were 
normally employed on a typical business day during the preceding 
calendar year.

    If the employer owns more than one establishment, generally, a Form 
8027 must be filed for each establishment. Restaurants where tipping is 
not customary, such as cafeteria and fast food restaurants, are not 
required to file a Form 8027.
    Total tips reported on Forms 8027 increased by more than $2 billion 
dollars between 1993 and 1996. In 2002, total tips reported on filed 
Forms 8027 were $8.89 billion.
    We recognize that the food and beverage industry has expressed the 
concern that the law, in its present form, has created an inequity in 
industries where tipping is customary. The IRS has developed a program 
to establish tip agreements with businesses in the casino and 
cosmetology industries (includes barbering and nail salons) and 
agreements to encompass all other tipping industries.
    We understand that the cosmetology industry is supporting 
legislation extending the 45B credit to their industry. At present, 
when monitoring compliance in the food and beverage industry with the 
requirements for the 45B credit, the Service uses information from the 
Form 8027. Under current law, comparable information would not be 
available for businesses in the cosmetology industry as they are not 
required to file Form 8027 or any other form containing specific 
information on charged tips.
    In a study prepared by the Office of Research entitled, ``The 
Effect of Tip Compliance Efforts on Tip Reporting,'' participants in 
the TRD/EP program reported charge and cash tips at a higher rate than 
non-participants.

Conclusion

    Mr. Chairman, thank you again for allowing me to testify. I will be 
happy to entertain any questions.

                                 <F-dash>

    Chairman HOUGHTON. Thank you very much. I just have a brief 
question, and then I will turn it over to the rest of the 
panel, particularly Mr. POMEROY. I am searching for what is the 
fair and practical approach. You obviously have improved the 
IRS regulations and the education system and the 
simplification, in terms of doubling the amount of revenue over 
the last--what is it, 10 years? Is that right?
    Mr. CONLON. Yes, sir.
    Chairman HOUGHTON. So, as you look to the next 10 years, do 
you continue on that program or do you not? The TRAC program is 
set to expire at the end of 2005. Do you want to renew that? 
What are your views on this?
    Mr. CONLON. Mr. Chairman, we have had no discussions about 
stopping the TRAC program. Frankly, based on the comments and 
the sensitivity around that, I think it would probably be 
appropriate for the IRS to issue a notice and publicly go on 
record that we intend to continue to pursue that program in the 
future and remove any doubt or concern that there may be about 
that. In the gaming tip agreements that we initiated about a 
year ago and are currently signing, actually there is no back-
end cessation of those agreements. What there is is a 3-year 
period, and we envision that every 3 years we should come in, 
have a session, determine whether the rates are still 
appropriate; and if they are, continue with the agreement in 
place; and if they are not, make any appropriate adjustments.
    We have had progress over the last 10 years. The battle is 
not won yet, but I think we still have a high degree of 
noncompliance. I believe personally that voluntary agreements 
are the methodology that we are going to need to use to be able 
to get to a much higher level of compliance than we currently 
have. Everything that it takes to support that is, I believe, 
necessary. Behavior of taxpayers being what it is, if there is 
no compliance presence, I believe we would find it difficult to 
get people to come forward to sign voluntary agreements with 
us.
    Chairman HOUGHTON. We have always had problems with the 
IRS, particularly in evaluating its budget, and determining if 
we have enough agents enforcing the laws. The whole tax system 
is based on trust and understanding and the belief that there 
is fairness. If some people are cheating and others are not, it 
really undermines the system. Let me ask just one final 
question. Is there evidence of a better solution to increasing 
tip-reporting compliance? For example, are any States involved 
in different approaches? Are there any foreign countries such 
as in England or in Germany? What programs are used in Japan? 
Is there any information which could help you think through 
what you are going to be doing in the next 10 years?
    Mr. CONLON. Well, Mr. Chairman, I do not know that there is 
an easy answer to that one. The biggest hurdle that we have in 
the tipped income arena is that really the responsibility rests 
on the employee to track their income and to report that to the 
employer. That is almost unique. Most of us have a 
responsibility to an organization or other responsibilities 
that are required to keep books and records and accurately 
report that as well. We usually have some checks and balances. 
A tipped income individual does not have perhaps all of the 
checks that other wage earners would have in other arenas, and 
it makes it much harder for us. I do believe that we can 
achieve additional compliance. I am not sure that there is an 
easy answer to that. I do not believe that it would be 
tolerable or advisable for us to institute mass volumes of 
individual examinations. I believe certainly we need to do 
some. We need to do some employer examinations in order to have 
a reasonable presence out there.
    Chairman HOUGHTON. All right, thank you. Mr. Pomeroy?
    Mr. POMEROY. During my question period, I did not get to 
the cosmetology industry, so let me start there with you. If I 
heard right, they do not have the EmTRAC opportunity, do they? 
What are the distinctions between the IRS handling of tip 
income relative to that industry versus the restaurant 
industry?
    Mr. CONLON. The TRAC forum is a vehicle that we could use 
for the cosmetology industry as well, so there is no reason why 
we cannot move into that arena. We have had a number of 
discussions about having additional discussions with them. From 
a practical standpoint, we started with the population of 
tipped employees that we believed was the largest, which was 
the food and beverage industry.
    Mr. POMEROY. Right.
    Mr. CONLON. We are trying to move into other arenas, such 
as gaming and cosmetology. What we have found, I believe, is 
that as we go into it industry-by-industry, there are nuances 
that we need to consider because the essence of a voluntary 
agreement is that it must be reasonable for the employer, the 
employee, as well as the U.S. Government. All three of those 
interests need to be considered. It would not surprise me that 
we need to make further modifications or adjustments in order 
to have a vehicle which is appropriate for cosmetology.
    Mr. POMEROY. Discussions have been described to me as 
proceeding in a constructive way toward this end. Do you 
envision administrative action in this area within the near 
future?
    Mr. CONLON. Well, I do, Congressman, and I believe that 
would model the discussions we have had with the restaurant 
association as well as with the gaming gssociation. It is, 
realistically, resources which have kept us from doing that up 
until now. As we have had additional progress in those areas, I 
do believe we have the capability to now move forward.
    Mr. POMEROY. Great. Now, the effect of H.R. 2133 that would 
bring to the salon industry the 45B non-refundable income tax 
credit for employer-paid Social Security taxes, can you 
describe what that is about?
    Mr. CONLON. Well, what it would do is offer to those 
employers the same credit that is in food and beverage, which 
is to the extent that they pay a wage--not tips but wages--
which exceed whatever is the stated minimum tax, they have the 
ability to get a refund for the employer portion of their FICA 
taxes.
    Mr. POMEROY. Does the IRS have a position on that 
legislation?
    Mr. CONLON. Sir, to my knowledge, you would really need to 
address that with the Treasury Department, since I see that 
more as a policy decision than an administrative one.
    Mr. POMEROY. In terms of underlying circumstances, the 
circumstances within the restaurant industry that created the 
rationale to have that law probably also exists in fairly 
similar fashion, albeit in a different industry context, in the 
cosmetology industry?
    Mr. CONLON. I would not have any argument with your 
statement. Again, I believe Treasury, though, would be the best 
organization to perhaps comment on that.
    Mr. POMEROY. All right. There is a lot of concern in the 
enforcement area, as evidenced by the prior panel, on this 
aggregate responsibility and the potential exposure toward the 
IRS by individual employers. How do you see the IRS using its 
potential enforcement actions under that authority against 
individual enterprises?
    Mr. CONLON. Well, the authority that we are resting on is 
not unlike other situations in administering the Income Tax 
Code, where if you get into a situation where the appropriate 
books and records have not been kept, we are left with trying 
to reconstruct the appropriate amount of income. In the absence 
of books and records, we will perform estimates using the 
information that is available. To the extent that we have--I 
mean, the more information we have, the better our estimates 
are going to be. I think some of the representations that we 
take charge sales and end there are far and away overly 
simplistic. That is merely a starting point. Actually, the many 
adjustments they have talked about in terms of stiff rates, tip 
pooling that may be taking place, whereas a waiter may take a 
portion of their tips and that may go on to the bus staff or 
even the cooks, all of those are factors that we try to take 
into account when we are preparing our estimates. Again, it is 
the absence of books and records which are requiring us to do a 
reconstruction and doing it to the best of our ability. I think 
in the final analysis, when you look at our estimates, for the 
most part they are deemed to be reasonable. Certainly there are 
a number of healthy discussions that we have with the employer 
or employee, but there are actually very few situations where 
someone has taken our proposed assessments and gone to, you 
know, a legal front and have it be found that those estimates 
were unreasonable.
    Mr. POMEROY. In the prior panel--and I know I am out of 
time, but I think you can respond to this, perhaps with the 
Chairman's leave--30 actions brought over the last 2 years. Is 
the enforcement piece of the EmTRAC relationship between the 
IRS and the employer, in your view, basically to be a rarely 
used enforcement authority triggered where there is 
particularly egregious conduct that has merited this kind of 
IRS response?
    Mr. CONLON. Well, actually, we have clear guidance to the 
field that would indicate that this should be a rarely used 
tool and it should be the last option that an examiner would 
avail themselves of. There are actually no situations where the 
IRS has gone back to 1988 to compute, you know, what may be 
deemed an excessive FICA tax adjustment. Our internal guidance 
is that normally one would not go past 2 years and then go 
forward. Of course, those determinations are up to the field. 
There could be situations where they do a current-year 
assessment and go forward, all of that based on facts and 
circumstances. We certainly do not have a policy of exercising 
perhaps all the latitude that in theory is there by the Code, 
and we have clear parameters which would equate those 
adjustments to other income tax type decisions we are making.
    Mr. POMEROY. Thank you.
    Chairman HOUGHTON. Mr. Herger?
    Mr. HERGER. Thank you. Director Conlon, I want to thank you 
for being with us here today. As you may know, I introduced 
legislation in 2002 in response to the concerns of restaurant 
owners following the Supreme Court case. Let me be clear that 
the intent of my legislation is not to stop the IRS from 
collecting FICA taxes on unreported tip income. The intent of 
the legislation is to make sure that the system is fair to 
restaurant owners and that unreported tip income is determined 
in the most accurate way possible. I want to ensure that 
restaurant owners are not put in the untenable position of 
being the tip police. This is not the small business man's or 
businesswoman's job. Their job is to run their businesses in 
the best way that they can. It is the IRS' job to enforce our 
tax laws. We need to be fostering a spirit of cooperation 
between tip businesses and the IRS. My concern is that the 
aggregate assessments undermine this spirit of cooperation.
    My question is this: what is the IRS doing to make sure 
that your determination of unreported tip income is more 
accurate? How can a restaurant owner have confidence that if he 
follows the law and educates his employees, he will not be 
subject to an aggregate assessment on the estimated amount of 
unreported income over which he has no control? Remember, 
restaurant owners can only report to the IRS the cash tips that 
are reported to them by their employees.
    Mr. CONLON. Well, Congressman, I believe that we have a 
system in place certainly that if the appropriate amount of tax 
is being paid, any estimation method we would take would 
confirm the accuracy of what has been reported, and there would 
be no additional assessment. The difficult situation, again, is 
when we have pockets of noncompliance, what is practical and 
reasonable for the IRS in terms of achieving the compliance 
that we are all seeking. An estimation allows us to have a 
platform by which we can work with the employer. We can also 
take that estimate and work with the employees to get 
compliance with them. Even if I had an individual examination, 
I would probably still find it necessary to go into those 
employer books and records in order to come up with an estimate 
of an accurate tip rate. It is a challenging situation, but, 
again, we do not use estimations to overturn books and records 
which are otherwise kept by the employer or the employee. We 
only use it when we have instances of the records actually not 
being maintained as appropriate.
    Mr. HERGER. Mr. Conlon, were you able to--I believe you 
were present when our panel was here, and you heard some of the 
horror stories that come about. During the time when I was 
going to school, as is the case with many, worked in 
restaurants, and I know that there are employees, those that 
are working there, some of which may receive literally double--
I know of cases of that--the tips that maybe the rest of them 
would. I mean, you just do not know. Likewise, there are some 
who struggle and receive less than what they do.
    The difficulty of coming up with these estimates--and I am 
sure you heard some of the testimony of the difference. There 
are carry-outs and take-outs and all the different little 
nuances that are there. Again, for these employers to somehow 
be held responsible for this--I know years ago now, I am a 
small business man myself, and I remember looking at some of 
the stats. At one time I actually considered going in the 
restaurant business until I looked at some of the stats. All 
small businesses are tough to make it when you start, but it is 
probably three or four or five times more difficult for a 
restaurant. You look at those, I think at one time, for every 
15 restaurants that started every year, there is only 1 or 2 
left after 3 years. I mean, this is a tough business to begin 
with for so many of them that are going. Do you have a response 
on how you can be working with this to correct this horrible 
dilemma that we are in?
    Mr. CONLON. Well, that is a tremendously challenging 
question and an opportunity you have provided me, Congressman. 
Unfortunately, I do not know that I have a great answer for 
that. It is a difficult situation. The real challenge for the 
IRS is do you walk away from a known situation of noncompliance 
or do you try to take some reasonable efforts to deal with the 
noncompliance that is there. We are taking approaches that I 
think are reasonable. I do not think it is appropriate for us 
to walk away from this, or else we are abridging the commitment 
that we have to those taxpayers who are paying their 
appropriate share.
    We stand ready to meet and work with any industry or group 
who has suggestions or methods for a better process than what 
we have got now. I think we have demonstrated that in the past, 
and we certainly stand ready to do that currently. If there is 
a better approach, we would be glad to have some substantive 
discussions and work to come up with a better product or a 
better methodology. To be honest with you, short of the current 
efforts we have, that represents our best thinking or certainly 
my best thinking at this point in time.
    Mr. HERGER. I know my time is up, and the Chairman has been 
very generous. Just very briefly, and it may not even need a 
response here. Another concern, even some of these agreements 
that they come up with on a TRAC agreement, there is this 
concern of new people in with the IRS and the fact that the 
rules seem to be changing in this. Anyway, there needs to be 
something done where the restaurants have some sense of peace 
of mind working with the IRS. That is not there now.
    Mr. CONLON. Congressman, if I could respond to that, if an 
organization has a signed agreement by an executive in the IRS, 
we live up to not only the words but the spirit of that 
agreement. I think our track record is that if you have it from 
us in writing, we do everything we can to meet our commitments. 
There are actually very, very few situations of us ever taking 
the effort to revoking an agreement. Out of over 46,000 
voluntary agreements out there, we have 17 revocations, and 
this is going over all the records that I could find going back 
10 years. That is an extreme situation, and I think based on 
that history, I would hope that a reasonable person could look 
at that track record and understand that if they enter into an 
agreement with us, we are certainly going to meet our portion 
of the commitment.
    Mr. HERGER. Thank you very much, Mr. Conlon. Thank you, Mr. 
Chairman.
    Chairman HOUGHTON. Thank you, Mr. Herger. Mr. Sandlin?
    Mr. SANDLIN. Thank you, Mr. Chairman, and thank you, Mr. 
Conlon, for coming today. You indicated that you have a 
dilemma, and I would submit to you that you do not have much of 
a dilemma. Your position that the IRS is taking is much like 
you see in the movies when they find someone they think 
committed a crime, and the policeman says, ``Go out and round 
up the usual suspects.'' That is what you guys are doing. You 
are going out and you are rounding up the usual suspects. You 
say that you have data within an industry that indicates a 
certain percentage of people are not properly reporting their 
income. That is not the way that this country works.
    You have absolutely no information as you go forward except 
data, internal data from the IRS, and just because there is an 
internal average--or there is an average in an industry based 
upon your internal records, it does not mean a particular 
person has committed any crime. I do not think you have a 
dilemma. You have got a law that you enforce that says when 
people earn income, they receive it, they report it, and they 
pay their tax on it. Aren't employees required to pay income 
tax only on the income that they receive?
    Mr. CONLON. Congressman, that is entirely correct. They are 
only required to report what they receive and no more.
    Mr. SANDLIN. Right, and I do not have to pay tax on some 
sort of income average that I did not receive, right?
    Mr. CONLON. That is absolutely correct.
    Mr. SANDLIN. Okay. You said that you do not have enough 
resources to audit everyone, so we need a balanced approach, 
correct.
    Mr. CONLON. Yes, sir.
    Mr. SANDLIN. Now, failure to pay income tax is a crime, 
isn't it? Isn't that a crime if you do not pay your income tax?
    Mr. CONLON. My wording around that is they failed to meet 
their obligations under the law. Whether that meets the 
definition of a crime, actually I do not know that that word is 
defined in the Tax Code as such.
    Mr. SANDLIN. Oh, so the IRS' position is that if someone 
does not pay their income tax it is not a crime?
    Mr. CONLON. I am saying----
    Mr. SANDLIN. We need to get this to the bar immediately.
    Mr. CONLON. Congressman, to my knowledge, the word 
``crime'' is not defined in the Internal Revenue Code, and we 
do not use it internally to describe----
    Mr. SANDLIN. Well, I am pleased to know that. Do you think 
that our constitutional rights require this balance that you 
are talking about, or do you think the Fifth amendment requires 
a constitutional--a balance of some sort?
    Mr. CONLON. Congressman, I would actually be glad to have 
that discussion, but I believe now you are into a policy rule, 
which is better handled by my colleagues in the Treasury. 
Again, my role is to administer the laws which are 
significantly or importantly passed by this body, and to the 
extent that I can, that is what I am attempting to do.
    Mr. SANDLIN. Okay. That is a good answer to some other 
question. Do you think that as we round up these suspects, for 
example, that we should go to a bar and, as everyone comes out, 
we should round them all up and maybe give them Breathalyzer 
tests or charge them with public intoxication just because 
there is a whole lot of them in there and we figure they have 
been drinking? Do you think that would be a good position for 
the government?
    Mr. CONLON. Congressman, I appreciate your comments; 
however, they do not describe the process----
    Mr. SANDLIN. I did not ask you about----
    Mr. CONLON. The policy and the procedures----
    Mr. SANDLIN. What they described. You are the one that told 
us that you all are going after these industries because you 
think a certain percentage of the people are not paying their 
tax, correct? Just because a certain percentage are not paying 
does not mean that any individual is not paying. Isn't that 
correct?
    Mr. CONLON. I do not know how you could reasonably assume 
that if--if we have a high degree of noncompliance, some 
individuals, some entities are not meeting their obligation----
    Mr. SANDLIN. Exactly my point, and so you are rounding up 
the innocents with the guilty, and you are saying you are all 
guilty by association, and we are going to come in here and 
take care of you as the government because we just do not--we 
do not have the assets or the information or the money to 
protect your constitutional rights, so we are just going to all 
round you up. Let me ask you some other things that you all are 
so interested in helping people with these voluntary 
agreements. As I mentioned earlier, I had found yesterday some 
information that taxpayers overpay their taxes by $1 billion a 
year because they fail to claim itemized deductions. Now, do 
you all have a group that you work with to get some voluntary 
agreements to pay that money back to them? I mean, since you 
found that out, do you have some voluntary agreements that they 
sign and you say we are going to give back that $1 billion?
    Mr. CONLON. Well, Congressman, we do have programs to 
better educate the public both on----
    Mr. SANDLIN. No, I did not ask you about your education 
programs. What I said, do you get them to enter into voluntary 
agreements from the government, from the IRS, to give them back 
the $1 billion that you know you got illegally? I guess if it 
is illegal for them to not report, it is illegal for you to 
take it, isn't it? That wouldn't not be right? I mean, what is 
good for the goose is good for the gander, isn't it? Now, let 
me ask you about the quarter of the taxpayers who are eligible 
for the EITC that do not claim it because it is too 
complicated. Do you go back to them and have voluntary 
agreements on that? If you would like to come up and testify, 
sir, we would like to have you forward. You can come up and I 
will ask you some questions. Or how about the small businesses 
that overpaid their taxes by $18 billion? Do you have written 
agreements with them, voluntary agreements that say we are 
going to pay back this $18 billion, we feel really bad about 
it? You do not have that.
    This entire thing, Mr. Chairman, just scares me in that we 
have the government running around creating potential conflicts 
between employers and employees and going after people on 
criminal allegations when they have absolutely no information 
and no probable cause about the individuals involved, and you 
think you are going to strong-arm industries and poor 
waitresses, single waitresses with children. You do not even go 
and collect this money that you know is owed. You do not go and 
investigate abusive tax shelters. You do not give money back 
that you collect illegally. I think we are going about it the 
wrong way. When you take care of those things, then I think we 
can go look at our waitresses and folks that work in the 
gambling industry and otherwise. It is outrageous that the U.S. 
Government would go after people on criminal allegations 
without any sort of information whatsoever except data on a 
group. I am out of time.
    Chairman HOUGHTON. I am not in Mr. Conlon's position, but I 
think the theme of this hearing is that everybody in his or her 
own way should be a part of the tax system, and we are trying 
to make it fair. Let me pick up on this a minute. It seems that 
you have got an almost impossible job, and I will tell you why 
I say this, and you can comment on this. It is that you are 
taking really low-wage earners, and many of them are making 
minimum wage. It is a wage which is not possible to live on, 
and they get a few extra dollars as far as tips. Essentially 
they have that, yet at the same time they are exposed the way 
the rest of us are, proportionately to their income on paying 
their tax. You can see this particularly in the lack of signing 
up with taxis and valets and bellhops and skycaps. They do not 
comply, or they do not sign up with any of your programs. I 
mean, if I was one of those operators, I think I would probably 
do something like EmTRAC where I could sort of design my own 
system, but they do not do it. Is it something which we can 
talk about and try to adjust, tweak the system a little bit? Is 
this something really which is fixable?
    Mr. CONLON. Well, Mr. Chairman, there are actually, I 
thought, a couple questions there, and let me try to be 
responsive to that. I think from an administrative decision, 
what you really need to ask yourself is: do you put all of your 
attention to one program or do you try to have balance in tax 
administration? I think clearly we are trying to have balance, 
with the understanding that if you ever completely move away 
from a noncompliant segment, the situation is going to get 
rampantly worse rather than better.
    From my standpoint, I have seen us take a number of 
aggressive steps to deal with tax shelters and abusive 
promotions, not only the promoters but the individuals who 
participate in those. Again, I believe our approach, which is 
to not put all of our resources in there, is appropriate, 
though clearly you do need to focus on major areas of 
significant noncompliance. Again, in that abusive arena, I 
believe we have done so and will continue to do so. In terms of 
a better approach, clearly we have had the approach in the past 
of let's just audit people until we get to compliance. I think 
our recognition is that that is not a winning solution for us; 
that is not the most efficient use of our resources. In light 
of that, we are now trying to use all of the resources 
available to us, which certainly include education, voluntary 
agreements with organizations, and trying to move the ball 
forward using that type of an approach.
    Again, I think the combination of the education, the 
voluntary agreements, and compliance or enforcement efforts is 
the methodology that we need to be using, and we just need to 
be careful that we are not outweighing one of those. It needs 
to be on a front that takes advantage of all those tools. 
Certainly it is not easy, but I do not think you would be 
expecting us to move away from this arena just because it is 
difficult for us to pursue it.
    Chairman HOUGHTON. Well, let me try to put in my own 
words--and correct me if I am wrong--what I hear. The program 
should be voluntary; it should be flexible; it should not put 
the burden on the employer. It should help the employees; it 
should set up common procedures and education and understanding 
of the law and the authority and simplification and things like 
that. Occasional auditing, focus on the important areas, and 
just leave it at that. Tell me where I am wrong here.
    Mr. CONLON. Mr. Chairman, I would not say you are wrong. I 
would say we need to and we do make continual assessments as to 
where we have the best application of our resources. The 
situation could change, and we could decide in the future to 
apply more to this program than we have in the past in light of 
significant noncompliance, again, in the abusive arena. I think 
that needs to be a clear focus area for us. We need to make 
sure that we are devoting the resources that we have available 
to meet those needs. Then we need to look at the breadth of 
noncompliance that we face, and that is a constantly 
challenging situation. Certainly different people can have 
different thoughts as to, you know, what is best in that arena. 
Clearly, that balanced approach, keeping in mind those 
significant egregious situations, is the approach that we have 
taken as an organization.
    Chairman HOUGHTON. Okay. Mr. Pomeroy?
    Mr. POMEROY. One of the presenters this morning made the 
observation that they felt this whole partnership concept, as 
kicked around down at the IRS headquarters, may get lost in 
terms of field implementation. I can certainly understand the 
management challenge of trying to basically hold the concept 
consistent through an operation spread all across the country 
with thousands of employees, although that seems to me a fair 
evaluation. Do you make efforts to try and have your personnel 
administer these TRAC agreements in the cooperative spirit that 
you have spoken to today?
    Mr. CONLON. Congressman, I believe whether we are talking 
the tip income program or a general examination program, our 
thrust is always to be up front regarding what the issues are 
before us and try to work in a collaborative manner. That is 
the methodology that I believe we deploy in every situation. 
Certainly we have tools that if people do not choose to work 
with us in that manner, we can make those available and deploy 
those as needed. We need to give people an opportunity to 
comply at a reasonable cost, at a reasonable burden to them. We 
need to facilitate that process. Unfortunately, I believe we 
need to continue to have an enforcement presence that reminds 
people of their obligations and commitments.
    Mr. POMEROY. Is the segment of our economy that involves 
tip income growing?
    Mr. CONLON. Well, industry data that we have available 
would indicate that it has. Some of the numbers available to us 
from the Restaurant Association talking about 10 million 
waiters and waitresses; the cosmetology industry has published 
over a million members of the salon industry; I think gaming 
has an estimated 370,000 employees. There are other industries 
for which we do not have industry data by which to come up with 
an estimate. If you look at those numbers over time, I think 
you will see growth there. That is why I believe the 
noncompliance that we do have is something that we need to pay 
attention to, so hopefully we are growing more compliance 
rather than growing more noncompliance.
    Mr. POMEROY. Thank you. I yield back.
    Chairman HOUGHTON. Mr. Herger, do you have a question?
    Mr. HERGER. Thank you. Mr. Conlon, just how effective do 
you feel that your TRAC program has been in improving 
compliance? Are there specific areas that you feel need 
improvement?
    Mr. CONLON. Well, in terms of the clear impact that has had 
on compliance, actually I do not have information that would 
allow me to come to you and say because we have a certain 
number of TRAC agreements, compliance has improved by an 
indicated percentage. The TRAC agreement is something we came 
to in collaboration with the Restaurant Association. It was a 
vehicle that they thought was more appropriate for them, and it 
does seem on an ongoing basis to be getting us to a more 
compliant environment. When we have those agreements, my belief 
is we are significantly more compliant than those 
establishments that we do not have them with. Again, I do not 
have empirical data necessarily by which I could tell you that 
it is, you know, more compliant by a stated percentage.
    Mr. HERGER. Thank you. Thank you, Mr. Chairman.
    Chairman HOUGHTON. Mr. Sandlin?
    Mr. SANDLIN. Thank you, Mr. Chairman. Just a few questions. 
You indicated and the Chairman asked about some opportunities 
to tweak the system. Now, as we mentioned earlier, an employee 
is required to report his received income, correct?
    Mr. CONLON. Yes, that is correct.
    Mr. SANDLIN. Then he is required to pay tax on that income, 
correct?
    Mr. CONLON. Yes.
    Mr. SANDLIN. So, that is tweak the system. I mean, that is 
the system, and that is what you need, and that is what the law 
is. I am continually concerned about your balanced approach as 
it tramples on the rights of individuals. You know, our 
government is not set up to take care of the whole. It is to 
protect the individuals. You said that, well, you do not think 
that the Congress would want you to move away because it is 
difficult to pursue this topic, correct?
    Mr. CONLON. My understanding is that the balanced approach 
is what we are being expected to deploy, and that is the 
approach we are taking.
    Mr. SANDLIN. My question was: you said that you think that 
the Congress does not want you to move away from this area just 
because it is difficult to pursue it.
    Mr. CONLON. That is correct.
    Mr. SANDLIN. My statement is to you that is exactly what I 
want you to do if by ``difficult to pursue'' you mean 
protecting the rights of the citizens. You know, our individual 
rights are protected in this country because they are difficult 
to take away. We do not condemn people and condemn industries 
and condemn individuals because they are in a certain group or 
class.
    Now, my position is this: if you as the IRS have an 
individual that you think is not complying, you should by all 
means go after that individual. However, just because it is 
difficult to go after the individual or it is costly or you do 
not have enough staff or you do not have enough clerks, or 
whatever the problem may be--I understand that is a practical 
problem for you, but you do not get to go after people just 
because you have some pie-in-the-sky belief or hope that they 
are not reporting something. This balanced approach is the 
most--that is the most dangerous attitude I have ever heard 
from any government agency, that we are going to take a 
balanced approach. We do not take balanced approaches with the 
law. We all have individual rights that are protected 
absolutely, and when we start balancing them, you have to be a 
little bit concerned about who is doing the balancing and who 
is weighing that.
    You said that people have to have an opportunity to comply 
in a reasonable way, and you need an enforcement presence that 
encourages people to comply. Most people understand, don't you 
think, that if they do not report the income, they can either 
be charged with a crime or required to pay back taxes plus 
penalty and interest? They understand there is an enforcement 
part of the IRS, don't you think?
    Mr. CONLON. Yes, sir, I do.
    Mr. SANDLIN. People have an opportunity to comply by 
reporting their income and paying their taxes, right?
    Mr. CONLON. They do.
    Mr. SANDLIN. It seems to me that you already have those 
opportunities, and certainly I think that the IRS--I know that 
you are challenged with your budget and what you need and the 
growing population and problems. I hope you will take into 
account the fact that we just cannot turn into a government or 
a government agency that tracks down people without specific 
allegations on the individual. Mr. Chairman, I think the entire 
approach is improper, if not unconstitutional, and maybe we 
should look at making sure they have enough assets to track 
down the money that is owed. Going after entire groups is 
pretty repugnant to the law. I yield back the balance of my 
time.
    Chairman HOUGHTON. Well, listen, I thank you very much. You 
have got a tough job. You have been an excellent witness. I 
would like to work with you. I think we are always going to be 
facing issues because the margin of the income is so small. We 
have some Members who were not here, so without objection, we 
will allow Members to submit questions to be answered in 
writing. Without further ado, Mr. Conlon, thank you very much 
for being here. The hearing is adjourned.
    Mr. CONLON. Mr. Chairman, Congressmen, thank you for your 
time. I appreciate it.
    [Whereupon, at 12:47 p.m., the hearing was adjourned.]
    [Submission for the record follows:]

   Statement of Richard J. Walsh, Darden Restaurants, Inc., Orlando, 
                                Florida

    I am writing on behalf of Darden Restaurants, Inc. (``Darden'') to 
comment on the enforcement of tip reporting by the Internal Revenue 
Service (``IRS'' or ``Service''), which was the subject of the 
Subcommittee on Oversight's hearing of July 15, 2004. Included within 
the scope of the Subcommittee's review is the progress of the Service's 
Tip Reporting Alternative Commitment (``TRAC'') program, which was 
officially launched in 1995. Darden, which was the first taxpayer to 
sign a TRAC Agreement, is writing to reconfirm its commitment to that 
partnership with the Service, but also to express concern about reports 
that the Service may not be honoring the terms of the TRAC agreement.

  A. Background.

    Darden is headquartered in Orlando, Florida and is the largest 
casual dining restaurant company in the world. We operate more than 
1,300 Red Lobster, Olive Garden, Bahama Breeze, Smokey Bones BBQ and 
Seasons 52 restaurants in North America. We are leaders in each of our 
market segments and employ more than 140,000 employees. Consequently, 
the accurate reporting of tips is of great concern to us.
    The numerous discussions between the IRS and the food service 
industry--which ultimately led to the launch of the TRAC Program in 
1995--actually began with a small, informal meeting in March 1994. 
Ernie Harper and I of General Mills Restaurants, Inc. (now Darden), Tim 
Halverson of Charthouse Restaurants, and a representative of Hyatt 
Hotels met with Tom Burger (then the Director of the IRS Office of 
Employment Tax Administration and Compliance), Bob Cossey (an IRS 
Revenue Officer from the Phoenix District), and Tony Warcholak (an IRS 
Revenue Officer from Chicago). This discussion was initiated because 
the Tip Rate Determination Agreements used by the gaming industry were 
not being accepted by tipped employees of the food service industry 
and, consequently, we wanted to explore the feasibility of restaurant 
employers negotiating a different agreement with the Service. With 
assurances from Mr. Burger that not only was the Service open to 
working on a market segment understanding with the food service 
industry, it would be willing to provide protection against retroactive 
assessments of employer FICA taxes for participating employers, I was 
tasked with approaching the National Restaurant Association and other 
restaurant employers to encourage participation in the negotiation 
process. Without the assurance from the Service on the issue of 
protection from retroactive assessments of employer FICA taxes, it is 
unlikely that I would have been able to persuade the industry to enter 
into negotiations with the Service.
    Over the next 18 months, numerous meetings of IRS and industry 
representatives were held at various sites around the country to work 
out the details of the market segment understanding. The working group 
expanded to include other restaurant and hotel employers and 
representatives of the IRS Office of the Associate Chief Counsel 
(Employee Benefits and Exempt Organizations). We were most fortunate 
that the IRS team was led by Tom Burger, who not only negotiated fairly 
with the industry, but encouraged open discussions about the industry's 
concerns with the IRS's interpretation and future administration of the 
market segment understanding agreement that came to be known as TRAC in 
March 1995.

  B. Employer's Obligations under TRAC.

    Section III. of the TRAC Agreement that both food service industry 
representatives and IRS representatives agreed to in 1995 requires a 
restaurant employer to:

    1.  establish procedures for tracking all tips reported by 
employees to the employer, so that the tips may be reported to the IRS;
    2.  educate and periodically update directly and indirectly tipped 
employees as to their obligation to report all the tips they receive as 
either direct tips from customers or as tip-outs from other members of 
the wait staff;
    3.  file all the requisite employment tax and information returns 
and to timely pay the appropriate taxes; and
    4.  to maintain certain tip reporting records and to submit to 
compliance reviews of those records at the request of the IRS.

    It is noteworthy that the final version of the 1995 TRAC Agreement 
does not set forth any requirement that charged or cash tips must be 
reported at any particular levels, rates, or percentages, or within any 
particular range of one another.

  C. IRS's Commitment Under TRAC.

    In exchange for the employer's commitment under TRAC, the IRS 
agreed during negotiations--and as reflected in the final TRAC 
agreement--that during the calendar quarters that an employer is on 
TRAC, the employer could be assessed for its share of FICA taxes on 
unreported tips, but solely based on employee-by-employee data gathered 
by the IRS from individual employee tax returns or audits of the 
individual employees by the Service (Section IV.A. of the TRAC 
Agreement). In other words, the IRS agreed that an employer on TRAC 
would not be subjected to an Internal Revenue Code (``Code'') 3121(q) 
aggregate assessment of the employer's share of FICA taxes.

  D. Working Group's Discussions Regarding TRAC Revocation.

    Consistent with the concern raised during the first informal 
discussion with Messrs. Burger, Cossey, and Warcholak of the IRS in 
March 1994, the TRAC working group had long and extensive discussions 
about the grounds for terminating a restaurant employer's participation 
in the TRAC program and whether the Service's revocation could be 
retroactive. The final version of the TRAC agreement, as negotiated by 
our working group, provides for only one circumstance in which a TRAC 
agreement may be revoked retroactively by the IRS.
    Specifically, if a restaurant employer (or any of its 
establishments) fails to substantially comply with the commitment to 
educate employees and/or to establish and maintain tip-reporting 
procedures as discussed above, the employer's (or its establishment's) 
participation in TRAC may be revoked retroactively. This revocation is 
effective on the first day of the first calendar quarter in which there 
was substantial noncompliance. This provision does not permit the IRS 
to revoke a TRAC agreement retroactively based on the rate of charged 
or cash tips reported by the restaurant's employees. In other words, 
the TRAC Agreement does not authorize the Service to revoke the 
Agreement retroactively because the Service or one of its agents 
decides that the tip reporting rates should have been higher during the 
years of TRAC participation.
    The TRAC working group's discussions on this point were vigorous. I 
distinctly remember the question that I directed to IRS 
representatives--``can the TRAC agreement be revoked retroactively, so 
as to expose the employer to a section 3121(q) assessment, if the IRS 
decides that the tips reported by employees during the restaurant's 
TRAC participation were not high enough?''
    I was again reassured by Service personnel that retroactive 
revocation would not happen under those circumstances. The working 
group's collective understanding that such action would not be taken by 
the Service is in fact reflected in the final TRAC agreement. Moreover, 
terminating a TRAC Agreement prospectively for an underreporting of 
tips by employees even requires the IRS to do more than just decide 
unilaterally that the tip reporting rates were too low. The TRAC 
Agreement provides in Section V. that the IRS may prospectively 
terminate an employer's participation (or an establishment's 
participation) if an IRS audit of employees for two calendar quarters 
reveals that the employees collectively and substantially underreported 
tip income, despite the employer's substantial compliance with TRAC 
requirements. In other words, if the Service determines through audits 
of employees that they are not in ``substantial compliance'' with the 
requirement to report tips in spite of the employer's commitment to 
TRAC, the IRS is empowered to revoke the TRAC prospectively with 
respect to the employer or a particular establishment of the employer. 
The prospective revocation is effective on the first day of the first 
calendar quarter after the Service notifies the employer or the 
establishment that the Agreement is being terminated.

E.  Concern Regarding IRS's Apparent Shift in Interpreting TRAC

        Revocation Authority.

    We are deeply concerned to learn that the IRS recently had 
retroactively revoked a TRAC agreement of another restaurant employer 
apparently on the grounds that the employer was in substantial 
noncompliance, because the tip rates were not high enough. If an 
employer, which has met its commitments under a TRAC agreement, can be 
retroactively subjected to a Code section 3121(q) aggregate assessment 
of employer FICA taxes, the greatest fear of the food service industry 
members of the TRAC working group is being realized 10 years after the 
TRAC negotiations were completed.
    We believe that the Subcommittee and the Service should consider 
whether this development puts the entire TRAC program at risk. No 
taxpayer and certainly no industry is willing to negotiate cooperative 
solutions with the Service and operate their businesses accordingly if 
IRS examiners feel free to change the deal when it suits them.

  F. Success of the TRAC Program.

    As the announcement for the Subcommittee's hearing noted, tip 
reporting has improved exponentially in the last decade, which is in no 
small measure due to the TRAC program and the exceptional efforts of 
Tom Burger and his team to work with the industry. Over 11,200 TRAC 
agreements have been signed by food service employers, covering nearly 
31,000 restaurant establishments. Form 8027 reporting by large food and 
beverage establishments nearly doubled between 1994, the year before 
TRAC was released, and 2001--$4.73 billion in reported tips to $7.86 
billion. An improvement in tip reporting of one-half of a percentage 
point reflects an additional billion dollars in reported tip income. 
Indeed, the TRAC program has been so successful; it has become the 
model for negotiating resolutions and market segment understanding 
agreements with taxpayers. Therefore, the IRS should continue to 
respect both the specific terms of the Agreement and the original 
intent of the program to work cooperatively with taxpayers.

  G. Conclusion.

    Darden is proud to have proposed the idea of an industry 
partnership with the Service and to have been the first signatory of a 
TRAC Agreement. We are prepared to continue that partnership, provided 
the Service is prepared to honor the agreement as negotiated a decade 
ago. We realize that the TRAC Program is scheduled to expire in 2005 
and if the Service believes that the TRAC program needs to be 
revisited, we would be delighted to be a part of that discussion. In 
the interim, however, we would encourage the Service to rethink its 
apparent decision to revoke TRAC agreements retroactively for reasons 
not articulated by the Agreement that was painstakingly negotiated with 
the food service industry in 1994 and 1995. In addition, we would 
encourage the Service to direct its enforcement efforts toward 
improving compliance among restaurant establishments that should be 
filing Forms 8027 or those with tipped employees who are not 
participating in the TRAC program.

                                  <all>

</pre></body></html>
